<html>
<title> - HEARING TO REVIEW USDA FARM BILL CONSERVATION PROGRAMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




         HEARING TO REVIEW USDA FARM BILL CONSERVATION PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2019

                               __________

                            Serial No. 116-6




              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
36-521 PDF                 WASHINGTON : 2019 











                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

MARCIA L. FUDGE, Ohio                DOUG LaMALFA, California, Ranking 
TOM O'HALLERAN, Arizona              Minority Member
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
CYNTHIA AXNE, Iowa                   RALPH LEE ABRAHAM, Louisiana
                                     TRENT KELLY, Mississippi

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii) 
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    15
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     2

                               Witnesses

Lohr, Hon. Matthew J., Chief, Natural Resources Conservation 
  Service, U.S. Department of Agriculture, Washington, D.C.......     5
    Prepared statement...........................................     7
    Submitted questions..........................................    35
Fordyce, Hon. Richard, Administrator, Farm Service Agency, U.S. 
  Department of Agriculture, Washington, D.C.....................    10
    Prepared statement...........................................    12
    Submitted questions..........................................    35

 
         HEARING TO REVIEW USDA FARM BILL CONSERVATION PROGRAMS

                              ----------                              


                        WEDNESDAY, MAY 15, 2019

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Abigail 
Davis Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, Fudge, 
Pingree, Axne, Peterson (ex officio), LaMalfa, Allen, and 
Kelly.
    Staff present: Felix Muniz, Jr., Grayson Haynes, Prescott 
Martin III, Anne Simmons, Alison Titus, Josh Maxwell, Ricki 
Schroeder, Patricia Straughn, Dana Sandman, and Jennifer Yezak.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. This hearing on the Subcommittee on Conservation 
and Forestry entitled, Hearing To Review USDA Farm Bill 
Conservation Programs, will come to order, and I will begin 
with my opening statement.
    I am pleased to be here today for our first Conservation 
and Forestry Subcommittee hearing. I am pleased to hold this on 
the 157th birthday of the USDA, which was founded in 1862 by 
President Lincoln. So, happy birthday to the USDA.
    I look forward to working with Ranking Member Doug LaMalfa, 
and I thank him for his leadership on the Subcommittee, and for 
the productive conversations and discussions we have already 
had regarding our shared priority.
    I also want to thank each Member for being a part of the 
Subcommittee, and I look forward to working with each of you.
    Today this Subcommittee will be addressing USDA farm bill 
conservation programs. We will be discussing the conservation 
programs under the respective authorities of the Natural 
Resources Conservation Service and the Farm Service Agency, as 
well as the changes that the 2018 Farm Bill made to some of 
these programs.
    To that end, I would like to thank our witnesses for being 
here today, and I would like to thank our witnesses for taking 
part in this discussion.
    I represent a diverse swath of central Virginia, from the 
Richmond suburbs to the fields of Nottoway County in the south, 
to the rural communities of Culpeper County in the north.
    I have heard from producers in my district who make use of 
the USDA's conservation programs such as EQIP and CRP, 
particularly now with net farm income at just \1/2\ of its 2013 
levels. These voluntary programs that provide support to 
farmers, while at the same time protecting our natural 
resources, are absolutely critical.
    The role of voluntary conservation programs in our 
country's history provides additional context as to why they 
are necessary today.
    Federal conservation assistance began during the Depression 
when the Great Plains experienced severe multi-year droughts 
leading to soil erosion, dust storms, farm abandonment, and 
mass migration, the Dust Bowl.
    In response, Congress established the Soil Conservation 
Service, which began advancing on the ground conservation 
practices to reduce soil erosion and promote productive fields 
and healthy landscapes.
    Today the Natural Resources Conservation Service and the 
Farm Service Agency at USDA administer more than a dozen 
programs and subprograms to address natural resource concerns. 
And through a voluntary incentive-based approach, USDA provides 
private landowners and operators with the technical and 
financial assistance they need to thrive, remain sustainable, 
and achieve profitability.
    This work is vital. More than 70 percent of land in the 
United States is held by private landowners, so the decisions 
they make have deep and lasting implications for Americans both 
on and off the farm.
    Much like the Dust Bowl era, the case for agricultural 
resiliency and sustainability applies today. According to the 
National Climate Assessment, climatic disruptions to 
agricultural production over the past 40 years have been linked 
to changes in crop yield and quality.
    Extreme weather events such as historic snowfall and 
flooding in the Midwest, destructive hurricanes across the 
Southeast, and devastating wildfires in the West lend urgency 
to conservation efforts.
    Throughout this hearing, I am interested in learning more 
about the suite of conservation programs available to producers 
through USDA, I am interested in learning more about the 
outreach strategies that recruit producers and encourage them 
to adopt new practices, and I am also eager to hear about the 
new authorities afforded by the 2018 Farm Bill and the 
prospects they hold in accelerating conservation efforts on the 
ground.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    I'm pleased to be here today for our first Conservation and 
Forestry Subcommittee hearing. I look forward to working with Ranking 
Member Doug LaMalfa, and I thank him for his leadership on the 
Subcommittee and the productive discussions we've already had about our 
shared priorities. I also want to thank each Member for being a part of 
this Subcommittee, and I look forward to working with each of you.
    Today, this Subcommittee will be addressing USDA farm bill 
conservation programs. We'll be discussing the conservation programs 
under the respective authorities of the Natural Resources Conservation 
Service and the Farm Service Agency, as well the changes that the 2018 
Farm Bill made to some of those programs. To that end, I would like to 
thank our witnesses for being here today to lead that discussion.
    I represent a diverse swath of central Virginia--from the Richmond 
suburbs to the fields of Nottoway County in the south to the rural 
communities of Culpeper County in the north. I've heard from producers 
in my district who make use of the USDA's conservation programs, such 
as EQIP and CRP. Particularly now, with net farm income at just \1/2\ 
its 2013 level, these voluntary programs that provide support to 
farmers--while at the same time protecting our natural resources--are 
critical.
    The role of voluntary conservation programs in our country's 
history provides additional context as to why they're necessary today. 
Federal conservation assistance began during the Depression, when the 
Great Plains experienced severe, multi-year droughts leading to soil 
erosion, dust storms, farm abandonments, and mass migration--the Dust 
Bowl. In response, Congress established the Soil Conservation Service, 
which began advancing on-the-ground conservation practices to reduce 
soil erosion and promote productive fields and healthy landscapes.
    Today, the Natural Resources Conservation Service and the Farm 
Service Agency at USDA administer more than a dozen programs and 
subprograms to address natural resource concerns. Through a voluntary, 
incentive-based approach, USDA provides private landowners and 
operators with the technical and financial assistance they need to 
thrive, remain sustainable, and achieve profitability. This work is 
vital. More than 70% of land in the United States is held by private 
landowners, so the decisions they make have deep and lasting 
implications for Americans both on and off the farm.
    Much like the Dust Bowl-era, the case for agricultural resiliency 
and sustainability applies today. According to the National Climate 
Assessment, climatic disruptions to agricultural production over the 
past 40 years have been linked to changes in crop yields and quality. 
Extreme weather events such historic snowfall and flooding in the 
Midwest, destructive hurricanes across the Southeast, and devastating 
wildfires in the West lend urgency to conservation efforts.
    Throughout this hearing, I am interested in learning more about the 
suite of conservation programs available to producers through USDA. I 
am interested in learning more about the outreach strategies that 
recruit producers and encourage them to adopt new practices. I am also 
eager to hear about the new authorities afforded by the 2018 Farm Bill 
and the prospects they hold in accelerating conservation efforts on the 
ground.
    With that, I would like to recognize the Ranking Member, the 
distinguished gentleman from California, Congressman Doug LaMalfa for 5 
minutes.

    The Chair. With that, I would like to recognize and thank 
Ranking Member Doug LaMalfa, the distinguished gentleman from 
California, for 5 minutes.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Good to see you, Madam Chair. Thank you for 
convening this hearing today, and it has also been a pleasure 
to work with you so far leading up to this point. I know we are 
going to have a great relationship as we accomplish a lot this 
session on these key issues we are going to deal with in 
conservation, and timber as well.
    I am obviously very geared towards what we have going on in 
my own district with that, but also all across the country with 
our management of our assets and the best conservation and use 
of it long-term.
    Good morning, and again, thank you for having this hearing 
on the USDA farm bill conservation programs.
    Over the past 35 years Congress has acknowledged that 
voluntary conservation works well, leading to significant 
investments and various conservation initiatives.
    In recent farm bills we have expanded our financial 
commitment for important issues like the CRP, Conservation 
Reserve Program, and EQIP, Environmental Quality Incentives 
Program. Both are very key to my own district in northern 
California.
    We also created new tools like the CSP, Conservation 
Stewardship Program, where it expands the use of on-farm 
conservation practices, and RCPP, the Regional Conservation 
Partnership Program, that leverages Federal funding, matching 
assistance from partners in the private-sector.
    Over the past 5 years, RCPP has been successfully utilized 
in Sacramento Valley as NRCS and other partners have worked 
with rice producers to create habitat for waterfowl, something 
we have done on our own farm at home to great effect.
    The 2018 Farm Bill has contained new approaches to funding 
and delivering conservation programs. The House Agriculture 
Committee worked hard to protect mandatory funding to 
strengthen the working lands and infrastructure programs. A few 
of the highlights include CSP, which was reformed to allow more 
flexibility in program delivery, EQIP funding was significantly 
increased and would reach over $2 billion per year by 2023, 
allowing for expanded authorities to address water savings and 
irrigation projects and to address drought in the West.
    CTA payments were established to allow for scalable 
adoption and maintenance of conservation practices, practices 
that will be tailored to address locally-identified resource 
concerns, very important.
    RCPP, which I had previously mentioned, was provided its 
own funding allocation, allowing the program to operate on its 
own along with streamlined delivery for NRCS.
    The Agricultural Conservation Easement Program which 
protects our farmlands, grasslands, and wetlands, received a 
significant increase as well. The CRP acreage cap was increased 
and meaningful reforms were implemented to prevent the program 
from competing against beginning farmers or other producers 
wanting to access land.
    Finally, the 2018 Farm Bill made significant investments in 
infrastructure, including our Watershed Operations Program that 
will provide certainty to project sponsors across the country.
    The funding and reforms that made these programs, along 
with the new authorities provided to address active management 
of National Forests, make this the strongest farm bill ever for 
western states as well.
    While our focus today is on the conservation programs 
administered by USDA, the farm bill also did many great things 
to assist private forest owners as well as state and National 
Forests. However, many needed authorities of streamlined active 
management of National Forests were left out.
    If we do not address the declining health of our largest 
carbon sink, many of our conservation gains will be wiped away 
with the destruction of watersheds and wildlife habitat, along 
with the loss of personal property and life, air quality, the 
whole shooting match.
    We need to do better.
    Again, thank you, Chair Spanberger for calling today's 
hearing. I look forward to working with you in this Congress. 
The Subcommittee has a lot of important work to do ahead of it 
as we review the implementation of key conservation and forest 
practices.
    I would also like to thank our witnesses today, Chief Lohr 
and Administrator Fordyce, for joining us today. We know both 
of you are very busy with farm bill implementation, always a 
challenge, never fast enough for some folks but we know you are 
busting it trying to get it going, and keep it going.
    Thanks for making time to be with us and I appreciate what 
you do to help our producers on the ground as well. I will 
yield back.
    Thank you, Madam Chair.
    The Chair. Thank you.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony and to ensure there is ample time for 
questions.
    I would like to welcome our witnesses today. Thank you for 
being here.
    Today we will hear from Matthew Lohr, Chief of the Natural 
Resources and Conservation Service. As Chief, Mr. Lohr provides 
leadership for NRCS and its mission to support America's 
farmers, ranchers, and forest landowners in their conservation 
efforts.
    Mr. Lohr is a fellow Virginian and a fifth-generation 
farmer. Prior to NRCS, Mr. Lohr served as Virginia's 
Commissioner of Agriculture and Consumer Services from 2010 to 
2013, and in the Virginia House of Delegates from 2006 to 2010.
    Since 2017, he has farmed full time on his family's 
operation, which includes poultry, beef cattle, row crops, and 
sweet corn.
    We will also hear from Richard Fordyce, Administrator of 
the Farm Service Agency. Our second witness is Mr. Richard 
Fordyce, Administrator of the Farm Service Agency. As 
Administrator he provides leadership for FSA and its mission to 
support agricultural production across America through a 
network of over 2,100 county and 50 state offices.
    Mr. Fordyce is a fourth-generation farmer from Bethany, 
Missouri, and previously served as the state's Executive 
Director for FSA in Missouri, and as Director of the Missouri 
Department of Agriculture from 2013 to 2017.
    I thank you both for your service and I look forward to 
your testimony.
    Chief Lohr, please begin when you are ready.

  STATEMENT OF HON. MATTHEW J. LOHR, CHIEF, NATURAL RESOURCES 
     CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Mr. Lohr. Well, good morning, Chair Spanberger, Ranking 
Member LaMalfa, and Members of the Subcommittee, and thank you 
so much for this opportunity for Richard and I to testify 
before you today to discuss the United States Department of 
Agriculture's conservation programs, and happy birthday, USDA. 
I appreciate you mentioning that.
    My name is Matthew Lohr and I have the distinct honor of 
serving as the 16th Chief of the Natural Resources Conservation 
Service, or more commonly known as NRCS.
    I started this position last December as a fifth-generation 
farmer in Virginia's Shenandoah Valley, and my earliest 
memories are as a child working alongside my father and my 
grandfather on our family farm, fortunately for me they modeled 
a love and appreciation of our natural resources that continues 
with me today.
    I know firsthand the importance of our motto, ``Helping 
people help the land.''
    Under the leadership and guidance of Secretary Perdue, the 
Farm Production and Conservation or FPAC mission area was 
recently established with a focus on domestic agricultural 
issues. Lead by Under Secretary Bill Northey, the FPAC mission 
area consists of NRCS, the Farm Service Agency, and the Risk 
Management Agency.
    The USDA mission area serves as the focal point for our 
nation's farmers, ranchers, and stewards of private 
forestlands. Together, the agencies work to support each other 
as we deliver our programs to best serve our customers.
    As an agency within the FPAC leadership structure, NRCS is 
focused on delivering conservation programs and technical 
assistance through a locally-led process where local input 
drives natural resources priorities.
    We have over 2,000 offices in communities nationwide with 
more than 9,000 employees who provide information, tools, and a 
delivery system to assist producers with conserving, 
maintaining, and enhancing their natural resources.
    NRCS works in partnership with private landowners, 
communities, local governments, and other stakeholders to 
promote a sustainable usage while safeguarding the nation's 
private working lands.
    Our conservation work revolves around two core functions, 
technical assistance and financial resources.
    Through our conservation operations, we provide technical 
assistance that is aimed at helping people conserve, maintain, 
and improve their natural resources. These operations support 
our critical infrastructure that enables our staff to deliver 
quality conservation planning, assist communities, and 
producers with water supply forecasting and assist the nation 
with becoming more resilient against climate change.
    Our web survey is broadly used by the agricultural sector 
as well as the general public.
    Each day, NRCS proudly invests roughly $8 million in 
conservation efforts, but that number is multiplied many times 
over through our great partnerships that we have, and 
agreements across the country.
    We also partner with fellow agencies, within USDA, like the 
Farm Service Agency and the U.S. Forest Service.
    Our working lands programs includes the Environmental 
Quality Incentives Program or EQIP, the Conservation 
Stewardship Program or CSP, we also offer farmland and wetland 
protection through the Agricultural Conservation Easement 
Program or ACEP, and features of each of these programs are 
available through our Regional Conservation Partnership Program 
or RCPP. Lots of acronyms to keep straight.
    Since the 2018 Farm Bill has become law, NRCS has worked to 
implement ACEP, CSP, and EQIP in 2019, while developing the 
rules and regulations for the Fiscal Year 2020 enrollment.
    Moving forward in 2019, we plan to do much more with our 
new authorizations. Today, in fact, I am pleased to share that 
the Secretary has announced a notice of funding availability 
for up to $25 million for our Conservation Innovation Grants or 
CIG, for on-farm conservation innovation trials. This 
announcement will include a soil health demonstration trial 
component and will be accepting proposals through July 15 of 
this year.
    As a farmer, I can attest to the fact that good 
conservation makes good financial sense for agriculture 
production. Through NRCS's services, farms are improved, 
efficiencies are established, and producers enhance production 
in concert with natural resources protection.
    NRCS's conservation efforts also extend to times of natural 
disaster, assisting both producers and communities in their 
greatest times of need. Through our programs like EWP and EQIP, 
we have assisted in hurricane recovery efforts in Puerto Rico, 
flooding across the heartland, and damaging wildfires 
throughout the West.
    Some of my greatest moments as Chief have occurred around 
kitchen tables and pickup trucks where I have heard stories 
from our customers face to face. Many of them have shared 
personal stories about how our efforts at NRCS have literally 
saved their farming operations.
    It is an honor to be able to share with you today and talk 
about the farm bill programs and the efforts that we are making 
to improve the environment, preserve our natural resources, and 
ensure the viability for agriculture and forestry for many 
generations to come.
    Thank you again for the invitation, and I look forward to 
the conversation.
    [The prepared statement of Mr. Lohr follows:]

 Prepared Statement of Hon. Matthew J. Lohr, Chief, Natural Resources 
 Conservation Service, U.S. Department of Agriculture, Washington, D.C.
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to testify about the United States Department of Agriculture's 
conservation programs administered through the Natural Resources 
Conservation Service (NRCS). I appreciate the ongoing support of this 
Subcommittee for voluntary, private lands conservation and the 
improvement of our soil, water, and other natural resources. I come 
before you today not only as the Chief of the NRCS, but also as a 
farmer who is well aware of the agency's conservation programs and 
their benefits to landowners.
    NRCS was first established as the ``Soil Conservation Service'' in 
1935, to address the dust storms that ravaged the nation's farmland. 
This is a history many know well, particularly those who work in the 
agriculture industry. These storms stripped away millions of tons of 
topsoil that were carried all the way to the Atlantic Ocean. The 
massive soil loss was recognized as a national emergency. The agency 
was later renamed the Natural Resources Conservation Service in 1994, 
to recognize its broader mission of addressing the nation's important 
natural resources.
    For more than 80 years, NRCS and its predecessor agency have worked 
in close partnerships with farmers and ranchers, local and state 
governments, and other Federal agencies to maintain healthy and 
productive working landscapes. Through one-on-one interaction, we work 
with producers and communities on a voluntary basis with the goal of 
``helping people help the land.''
Farm Production and Conservation Mission Area and the NRCS
    Under the leadership and guidance of Secretary Perdue, the Farm 
Production and Conservation (FPAC) mission area was established in 2017 
with a focus on domestic farmer-facing agricultural issues. Led by 
Under [S]ecretary Northey, the FPAC mission area consists of the 
Natural Resources Conservation Service, Farm Service Agency, and the 
Risk Management Agency. This USDA mission area serves as the focal 
point for the nation's farmers, ranchers, and stewards of private 
agricultural lands and non-industrial forest lands. Together, the 
agencies work to support each other as we deliver our programs to serve 
our customers.
    As an agency within the FPAC leadership structure, the NRCS has a 
key focus on conservation programs and technical assistance. The agency 
employs skilled employees in fields such as agriculture, agronomy, 
engineering, biology, soil science, plant science, forestry, and 
hydrology. We have more than 2,000 offices across communities 
nationwide with more than 9,000 employees dedicated to providing 
information, tools, and a delivery system to assist producers with 
conserving, maintaining, and enhancing their natural resources for the 
betterment of their individual agriculture operations and their 
communities. NRCS works in partnership with private landowners, 
communities, local governments, and other stakeholders to promote the 
sustainable use and safeguard the nation's private working lands.
NRCS Farm Bill Conservation Programs
    NRCS offers a suite of working lands and easement programs that 
provide assistance to agricultural producers and others for addressing 
their natural resource concerns. The suite of working lands programs 
includes the Environmental Quality Incentives Program (EQIP), the 
Conservation Stewardship Program (CSP), and the Agricultural 
Conservation Easement Program (ACEP). Each of these programs assists 
producers with implementing land stewardship practices and activities. 
Under the easement programs, NRCS restores, protects, and enhances 
wetlands and grasslands and assists third parties in protecting 
agricultural lands.
    For FY 2018, NRCS programs provided:

  <bullet> $245 million in ACEP financial assistance funding used to 
        enroll more than 100,000 acres of farmland, grasslands, and 
        wetlands. The agency also closed more than 440 ACEP easements, 
        protecting a collective 140,000 acres.

  <bullet> More than $1.3 billion in obligations for EQIP financial 
        assistance covering an estimated 13 million acres.

  <bullet> Approximately $24.6 million in financial assistance 
        obligated to five states through the National Air Quality 
        Initiative to help producers meet requirements of the Clean Air 
        Act.

  <bullet> More than $11.7 million in contracts with producers 
        obligated in three states severely affected by drought. These 
        producers were able to use EQIP financial assistance for 
        watering facilities, prescribed grazing, pasture and hayland 
        planting, and planting cover crops.

  <bullet> More than $83 million in financial assistance for new 
        enrollments provided through CSP to improve more than 7.5 
        million acres.

  <bullet> The Regional Conservation Partnership Program (RCPP) 
        incorporates features from both the working lands and easement 
        programs in coordination with the private-sector and other non-
        Federal partners. NRCS began the 2018 enrollment activities in 
        January 2017 by issuing the 2018 RCPP Announcement for Program 
        Funding (APF) for $252 million, which increased the number of 
        training/outreach efforts to the public and partners about RCPP 
        and improved program processes. In the 2018 APF, the agency 
        received 164 pre-proposals that requested a total of $683 
        million in program funds and provided a partner contribution of 
        $1 billion in support of those projects.
Conservation Operations
    The purpose of Conservation Operations is to provide technical 
assistance supported by science-based technologies and tools that help 
people conserve, maintain, and improve the nation's natural resources. 
Conservation Operations has four major program components: Conservation 
Technical Assistance Program (CTA); Soil Survey; Snow Survey and Water 
Supply Forecasting (SSWSF); and Plant Materials Centers (PMCs). CTA has 
been thought of as the backbone of the agency's conservation delivery 
system. The CTA discretionary funding provides for the development and 
delivery of a major portion of the products and services associated 
with four of the agency's five business lines: (1) Conservation 
Planning and Technical Consultation; (2) Conservation Implementation; 
(3) Natural Resource Inventory and Assessment; and (4) Natural Resource 
Technology Transfer. The fifth business line, Financial Assistance, is 
funded through the conservation programs listed above.
FY 2018 Results through the Conservation Technical Assistance (CTA) 
        Program

  <bullet> In 2018, NRCS developed conservation plans covering 27.5 
        million acres. In accordance with those plans, conservation 
        practices and systems designed to improve soil quality were 
        applied to 6 million acres of cropland.

  <bullet> Owners and managers of grazing and forest lands applied 
        conservation practices to improve more than 12 million acres.

  <bullet> Conservation practices were applied to more than 16.5 
        million acres of agricultural land, as designed by the agency, 
        to improve off-site water quality.

  <bullet> Conservation practices were applied to nearly 325,000 acres 
        to improve irrigation water use efficiency, which reduces 
        producer costs, groundwater withdrawals, and surface runoff.

  <bullet> Conservation practices and systems were applied on more than 
        7 million acres to improve wildlife habitat.
Mission Delivery Highlights
    NRCS employees proved adaptable, innovative, and effective in 
working to address continuing and emerging natural resource challenges. 
A few recent highlights include:

  <bullet> Responding to Natural Disasters: NRCS used the Emergency 
        Watershed Protection (EWP) Program to provide assistance for 
        hurricane recovery in Puerto Rico and the Southeast hurricane 
        impacted areas, wildfires in the West, floods in the Midwest.

  <bullet> Enhanced Nutrient Management: NRCS provides technical and 
        financial assistance for the development and implementation of 
        enhanced nutrient management plans. NRCS field staff are 
        trained to provide nutrient management planning and 
        implementation assistance to USDA clients using nutrient 
        movement risk assessment tools and by implementation of 
        practices to reduce agricultural emissions.

  <bullet> Livestock: NRCS actively works with producers in grasslands 
        systems (pasture and range) as well as confined operations 
        (feedlots and dairies). Practices such as prescribed and 
        rotational grazing, range planting, and forage and biomass 
        planting ensure that grassland areas are maximizing 
        productivity, sequestering carbon, and increasing resiliency to 
        conditions such as prolonged droughts.

  <bullet> Improving knowledge of soils, ecological sites, and land-
        use: NRCS Soil Survey, Natural Resources Inventory (NRI), and 
        Conservation Effects Assessment Project (CEAP) Programs build 
        the foundation of knowledge to better direct land-use 
        decisions. Through these efforts, we better understand land and 
        soil characteristics, land use trends, and impacts of 
        conservation practices on water, soil, and air quality.
Success through Initiatives
    Landscape Initiatives are a way to maximize the conservation impact 
achieved through NRCS programs. We find win-win solutions that address 
conservation problems in a way that meets the needs of the agriculture 
sector as well as the broader public. Landscape Initiatives allow NRCS 
to effectively and consistently address resource concerns that occur on 
a scale that crosses boundaries to achieve meaningful conservation 
outcomes. We target resources to effectively address important 
conservation problems and work in partnerships to build on the strength 
and investments of engaged stakeholders.
Examples of NRCS initiatives include:

  <bullet> Joint Chief's Landscape Restoration Partnership: The U.S. 
        Forest Service and NRCS are working together to improve the 
        health of the forests where public forests and grasslands 
        connect to privately owned lands. Through the Joint Chiefs' 
        Landscape Restoration Partnership, the agencies are restoring 
        landscapes, reducing wildfire threats to communities and 
        landowners, protecting water quality, and enhancing wildlife 
        habitat.

  <bullet> Longleaf Pine Initiative: Longleaf pine forests once 
        encompassed more than 90 million acres across the Southeast, 
        stretching from eastern Texas to southern Virginia. These 
        forests represent some of the world's most biologically diverse 
        ecosystems and are home to nearly 600 plant and animal species, 
        including 29 threatened and endangered species. Over the past 2 
        centuries, development, timbering, and fire suppression reduced 
        the ecosystem's range by almost 97 percent. Since 2010, NRCS 
        has worked with agricultural producers and conservation 
        partners to restore longleaf forests through this initiative.

  <bullet> Mississippi River Basin Healthy Watersheds Initiative 
        (MRBI): States within the Mississippi River Basin have 
        developed nutrient reduction strategies to minimize the 
        contributions of nitrogen and phosphorus to surface waters 
        within the basin, and ultimately to the Gulf of Mexico. MRBI 
        uses a small watershed approach to support the states' nutrient 
        reduction strategies. Avoiding, controlling, and trapping 
        practices are implemented to reduce the amount of nutrients 
        flowing from agricultural land into waterways and to improve 
        the resiliency of working lands.

  <bullet> National Water Quality Initiative (NWQI): Now in its eighth 
        year, the National Water Quality Initiative is a partnership 
        among NRCS, state water quality agencies and the Environmental 
        Protection Agency to identify and address impaired water bodies 
        through voluntary conservation. NRCS provides targeted funding 
        for financial and technical assistance in small watersheds most 
        in need, and where farmers can use conservation practices to 
        make a difference. Beginning this year, the scope of NWQI has 
        been expanded to include the protection of drinking water.

  <bullet> Western Lake Erie Basin: This initiative expands 
        conservation and financial assistance opportunities available 
        to farmers in the Western Lake Erie Basin who want to take 
        additional steps to improve water quality.

  <bullet> Working Lands for Wildlife: Through Working Lands for 
        Wildlife (WLFW), NRCS uses a win-win approach to systematically 
        target conservation efforts to improve agricultural and forest 
        productivity, which enhances wildlife habitat on working 
        landscapes. Target species are used as barometers for success 
        because their habitat needs are representative of healthy, 
        functioning ecosystems where conservation efforts benefit a 
        much broader suite of species.
Conclusion
    As we look forward to the work that is before us, our goal is 
clear: to continue ``helping people help the land.'' This goal remains 
consistent each day as we serve our customers, whether in the field or 
in Washington, D.C. In the short time that I have been with the agency, 
I can assure you that the workforce is operating full steam ahead as we 
carry out our objectives and work to implement our respective 
provisions of the farm bill as quickly as possible. Madam Chair this 
concludes my statement. I will be happy to answer your questions and 
those of the other Subcommittee Members.

    The Chair. Thank you very much, Chief Lohr. We appreciate 
your comments.
    Administrator Fordyce, please when you are ready.

STATEMENT OF HON. RICHARD FORDYCE, ADMINISTRATOR, FARM SERVICE 
                  AGENCY, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. Fordyce. Chair Spanberger, Ranking Member LaMalfa, and 
distinguished Members of the Committee, I am honored to be with 
you this morning.
    This is the first opportunity that I have had to be before 
the Subcommittee or the Committee in general since being 
appointed Administrator last May.
    Thank you for your support of our vital farm programs and 
the excellent farm bill that allows us to help farmers and 
ranchers promote, build, and sustain family farms.
    The Farm Service Agency serves America's farmers, ranchers, 
and agricultural producers through the delivery of effective, 
efficient agricultural programs.
    The agency offers farmers a strong safety net through the 
administration of farm commodity and disaster programs, while 
conserving natural resources and providing credit to 
agricultural producers who are unable to receive private 
commercial credit.
    Obviously, I am very proud of the work the Farm Service 
Agency does and the services they provide to our agricultural 
producers. I would be remiss if I didn't mention the nearly 
10,000 folks that work on behalf of the Farm Service Agency 
across this country, and more than 2100 county offices. And as 
I travel the country and visit with them, hearing their 
stories, understanding their passion for agriculture, their 
understanding for agriculture, a lot of times they refer to the 
farmers that they serve in their local communities as their 
farmers.
    Agriculture is in my blood. I am a fourth-generation 
Missouri farm boy, my son is a fifth-generation farmer on our 
farm, so I know the importance of how our work and NRCS's work, 
and I know the policies and programs we implement not only 
affect my farm but my neighbors and our communities as well. I 
take this job and this role very seriously.
    One of USDA's largest conservation programs is the 
Conservation Reserve Program. It is a complex program that 
provides a variety of benefits. It has come a long way since 
its inception in 1985, and continues to evolve even today, 
including more partnerships like those under the Conservation 
Reserve Enhancement Program.
    In some parts of the country, marginal, highly-erodible 
lands that are not ideal for agricultural production, it is 
better for the long-term health of the soil to keep them 
covered with grass or trees year round. And in more productive 
fields, conservation buffers like riparian buffers, grass 
waterways, and contoured grass strips are often needed to 
prevent sediment and nutrients from polluting water bodies.
    In exchange for cost-share and rental payments, farmers 
remove environmentally-sensitive land from production, and 
plant resource-conserving land cover to protect soil, water, 
and create wildlife habitat. The program recognizes that 
benefits from a farmer placing environmentally-sensitive 
cropland into conservation uses are consumed not just by the 
farm but by other people.
    CRP can spur hunting, fishing, recreation, tourism, and 
other economic activity across rural America.
    I have some news for today. I am happy to share that the 
Secretary just announced that beginning June 3, we will reopen 
CRP continuous signup and accept requests for extensions of 
expiring CRP contracts.
    Additionally, our Emergency Conservation Program, or ECP, 
and the Emergency Forest Restoration Program, EFRP, continue to 
provide critical funding for rehabilitation to farmers and 
ranchers across the nation after a disaster. Within the last 
year alone, we have seen fires across the western states and 
our prairies, hurricanes pummel the Southeast, extreme drought 
in the Texas Panhandle, and last month historic snowfall and 
flooding across the Northern Plains and the Midwest. Even with 
the best planning, the impacts of these disasters will take 
years, in many cases, for a full recovery.
    Our conservation programs are voluntary, and the fact that 
our main program, CRP, covers over 22 million acres and the 
additional millions of acres enrolled in NRCS programs, shows 
how farmers are naturally good stewards of the land. For many, 
these lands are their livelihoods, their history, and their 
legacy. They want to leave the land better than they found it 
and pass it down to future generations, and our conservation 
programs and services that we provide help them do just that.
    Again, thank you for the opportunity to speak with you 
today, and I look forward to answering any questions that you 
may have.
    [The prepared statement of Mr. Fordyce follows:]

Prepared Statement of Hon. Richard Fordyce, Administrator, Farm Service 
        Agency, U.S. Department of Agriculture, Washington, D.C.
    Chair Spanberger, Ranking Member LaMalfa, and distinguished Members 
of the Committee, I am honored to be with you this morning. Today's 
hearing marks my first occasion to appear before this Subcommittee, and 
the Committee as a whole, since my appointment as Farm Service Agency 
(FSA) Administrator. I thank you for the opportunity to testify and 
share how FSA is helping farmers and ranchers to promote, build, and 
sustain family farms in support of a market-oriented, economically and 
environmentally sound American agriculture delivering an abundant, 
safe, and affordable food and fiber supply while sustaining quality 
agricultural communities.
    Like Secretary Perdue, I am an unapologetic advocate for American 
agriculture. Farmers, ranchers, and foresters are the backbone of 
America. Shouldering the tremendous responsibility of feeding a rapidly 
growing nation and world, their critical work also provides economic 
stability across the countryside--supporting rural economies and 
creating jobs in local communities. Their stewardship and careful 
management of these vital landscapes builds resilient local economies 
with profitable farms and ranches, clean air and water, healthy food, 
and abundant wildlife.
    The Farm Service Agency serves America's farmers, ranchers, and 
agricultural partners through the delivery of effective, efficient 
agricultural programs. The agency offers farmers a strong safety net 
through the administration of farm commodity and disaster programs 
while conserving natural resources and providing credit to agricultural 
producers who are unable to receive private, commercial credit with 
special emphasis on beginning, under-served and women farmers and 
ranchers.
    The conservation programs, which FSA and the Natural Resources 
Conservation Service (NRCS) administer, are effective tools for 
farmers, ranchers, and land stewards to manage the land and conserve 
natural resources. As a farmer myself, I truly understand the benefits 
these agencies and tools provide to producers across the country in 
finding the best solutions to meet our conservation and business goals. 
Today, I'll talk about FSA conservation programs and the benefits they 
are providing for the American people.
CRP Benefits Stretch Far and Wide
    Created by the 1985 Farm Bill, the Conservation Reserve Program 
(CRP) is one of the USDA's largest conservation programs. CRP is a 
voluntary program. The program recognizes that the benefits from a 
farmer placing environmentally sensitive cropland into conservation 
uses are realized not just by the farm but also by all people. Land 
placed in CRP contributes to cleaner water, provides habitat for valued 
wildlife, generates pollination services, helps to reduce downstream 
flood damage, and restores aquifers. In doing so, CRP supports wildlife 
populations and natural landscapes, and spurs hunting, fishing, 
recreation, tourism, and other economic activity across rural America.
    What separates CRP from the Department's other conservation 
programs are the annual rental payments in addition to the more 
traditional cost share assistance provided to program participants for 
installing conservation practices. Throughout the 10 to 15 year CRP 
contract, CRP participants receive annual rental payments based on 
their offer to retire marginal cropland from production and restore it 
to conservation covers comprised of either grasses or trees, and 
associated forbs, legumes, and other plants.
    In general, farmers and ranchers are willing to voluntarily install 
conservation practices when and where practicable so long as doing so 
does not adversely impact their ability to make a living off the land.
    Since 1985, CRP has made a vital impact on our landscapes:

  <bullet> More than 8 billion tons of soils have been prevented from 
        eroding.

  <bullet> More than 170,000 stream miles are protected with CRP 
        riparian and grass buffers. In New York State, these buffers 
        are protecting the City of New York's water supply.

  <bullet> On fields enrolled in CRP, nitrogen and phosphorus losses 
        are reduced an average of 95 percent and 85 percent, 
        respectively.

  <bullet> In 2017, nitrogen and phosphorus releases to the environment 
        were reduced by an estimated 521 million pounds and 103 million 
        pounds, respectively.

  <bullet> Sediment loss reductions were an estimated 192 million tons 
        in 2017.

    CRP also helps farmers and ranchers in rural America create 
wildlife habitat for both game and non-game wildlife species, helps 
protect threatened and endangered species, and even helps prevent 
candidate species from being listed.

  <bullet> The U.S. Fish and Wildlife Service (USFWS) identified the 
        CRP as having contributed to restoration of grassland habitats, 
        positively influencing Lesser prairie chicken abundance and 
        distributions.

  <bullet> A USFWS analysis credited CRP with increasing Prairie 
        Pothole duck populations by two million ducks per year between 
        1992 and 2004. A second analysis found that between 2007 and 
        2011, habitat on CRP land contributed approximately 1.5 million 
        ducks annually.

    The benefits from CRP, along with those reaped from NRCS 
conservation programs, positively impact not only producers' lands, but 
also their neighbors, their watersheds, and ultimately the entire U.S. 
population and beyond.
Current State of CRP
    CRP allows USDA to contract with landowners so that environmentally 
sensitive land can be devoted to generating conservation benefits. 
Participants establish long-term, resource-conserving cover and, in 
return, FSA, which administers CRP on behalf of the Commodity Credit 
Corporation, provides participants with annual rental payments and 
other assistance. FSA administers CRP with technical support from NRCS, 
state forestry agencies, local soil and water conservation districts, 
and other non-Federal technical service providers.
    Currently, 22.4 million acres are enrolled in CRP contracts, 
including 13.5 million acres under General sign-up enrollment 
authority, 8 million acres under Continuous sign-up enrollment 
authority, and 900,000 acres under the Grasslands sign-up enrollment 
authority. Twenty-four million acres of enrollment were authorized 
under the 2014 Farm Bill.
    Producers have been able to enroll in CRP in multiple ways: General 
sign-ups, Continuous sign-up and Grassland enrollments. General sign-up 
is a competitive process where land is ranked using an Environmental 
Benefits Index (EBI). General sign-ups occur periodically, not 
necessarily every year. The last General sign-up occurred in the spring 
of 2016.
    CRP Continuous sign-ups occur on a continuous basis throughout the 
year and do not have a distinct sign-up period. Unlike General sign-
ups, there is no bidding and ranking; the land is enrolled 
automatically if it meets the eligibility criteria. Continuous sign-ups 
target specific practices such as riparian and grass buffer strips 
along streams and wetland restorations, as well as specific habitat 
types of wildlife. Under the CRP Conservation Reserve Enhancement 
Program (CREP), which utilizes continuous sign-up, FSA partners with 
states to address high priority local and regional conservation issues.
    CRP Grasslands sign-ups occur on a continuous basis with periodic 
rankings and selection. Under this signup type, landowners and 
operators protect grassland, including rangeland and pastureland, and 
certain other lands, while maintaining the areas as grazing lands. The 
statutory enrollment cap is 2 million acres, which counts against the 
overall CRP acreage cap.
    The Transition Incentives Program (TIP) encourages landowners to 
sell or lease long-term to beginning, socially disadvantaged, and 
veteran farmers and ranchers willing to implement sustainable practices 
or transition to organic production by providing 2 years of additional 
payments for expiring CRP-enrolled land. About $22 million of TIP 
funding was obligated under the 2014 Farm Bill, helping an estimated 
1,519 eligible new producers.
    CRP contracts on 1.6 million acres (combined general and 
continuous) are set to expire on September 30, 2019. Although 
enrollment is currently suspended as we evaluate and respond to changes 
to the program required by the 2018 Farm Bill, FSA will be sending out 
letters to producers, who have CRP acres expiring this year, later this 
month.
CRP and 2018 Farm Bill
    The passage of the 2018 Farm Bill brings some new opportunities for 
CRP. One of the most noticeable changes is a gradually increased 
enrollment cap from 24 million acres in FY 2019 to 27 million acres in 
FY 2023, of which at least 8.6 million acres will be targeted for 
continuous practices and 2 million allocated for CRP grasslands. 
Additionally, the 2018 Farm Bill directs water quality practices to be 
prioritized, aiming for at least 40 percent of continuous CRP acres to 
be in practices under the Clean Lakes, Estuaries, and Rivers (CLEAR) 
initiative.
    Two new pilot programs were also added to CRP: CLEAR 30 and the 
Soil Health and Income Protection Pilot Program (SHIPP). The CLEAR 30 
CRP pilot program will allow producers to reenroll CRP CLEAR water 
quality practices for up to 30 years. SHIPP will offer short-term (3 to 
5 year) contracts to landowners to remove the least productive land 
from their operation.
    Other additions to CRP include expanded opportunities for haying, 
grazing, and other management tools, cost-share for fencing and other 
water distribution practices, and the opportunity for certain land that 
was under a 15 year CRP contract that expired in 2017 or 2018 to 
reenroll.
    FSA continues to look for ways to help new and beginning farmers 
gain entry into farming--whether through outreach or other means. The 
2018 Farm Bill provided $50 million for TIP through FY 2023, up from 
the $33 million provided in the 2014 Farm Bill.
    Since the start of CRP, rental rates have been set to follow the 
market. FSA currently uses data from the National Agricultural 
Statistics Service cash rents survey, adjusted for soil types, to set 
CRP annual payment rates. Rates are updated periodically, and under the 
new farm bill will be updated annually. The 2018 Farm Bill reinforced 
FSA's process for setting rates, reaffirming the need for alternative 
rates in certain cases and adding a proration of those rates by signup. 
The 2018 Farm Bill also added requirements to publish rates on the web 
and offer an opportunity for Congressional briefings prior to 
publication of the rates. USDA continues to strive for CRP rates to 
follow the market while meeting Congressional intent for conservation 
of the land.
    Currently, FSA is evaluating all the changes made to the CRP by the 
2018 Farm Bill and is working to implement those changes as quickly as 
possible. The language and structural changes to the CRP statute are 
extensive, including adding the new targets for enrollment, codifying 
language on mid-contract management and haying and grazing, specifying 
incentives, prorating annual rental rates while allowing for 
alternatives, codifying Conservation Reserve Enhancement Program (CREP) 
administration specifically for the first time, adding the two pilot 
programs, and adding reporting requirements. Where administrative 
decisions are needed, we are ensuring all our decisions are facts-based 
and data-driven, with a decision-making mindset that is customer-
focused.
Emergency Assistance through non-Title II Conservation Programs
    First authorized in 1978, the Emergency Conservation Program (ECP) 
is of great importance to farmers and ranchers across the nation after 
a disaster. Within the last year alone, we have seen fires across the 
western states and our prairies, hurricanes pummel the Southeast, 
volcanic eruptions in Hawaii, extreme drought in the Texas Panhandle, 
and just last month, historic snowfall and flooding across the Northern 
Plains and Midwest. Even with the best planning, the impacts from these 
disasters will take years, in many cases, for full recovery.
    ECP provides funding and technical assistance for farmers and 
ranchers to restore farmland damaged by natural disasters and for 
emergency water conservation measures in severe droughts. FSA allocated 
more than $226 million in ECP cost-share and technical assistance funds 
to 37 states in FY 2018 for farmland rehabilitation across the nation 
resulting from disasters.
    As natural disasters happen, we stand ready to provide ECP funding, 
within our available resources, to farmers and ranchers in those states 
to restore livestock fences and conservation structures, remove flood 
debris, and rehabilitate farmland. So far, FSA has allowed for the 
streamlining of signup at the local county offices by authorizing 
waivers of on-site visits to farms and ranches where needed. County 
offices are currently conducting sign-ups in a variety of counties 
across the nation.
    Under the Emergency Forest Restoration Program (EFRP), FSA provides 
payments to eligible owners of nonindustrial private forest land to 
carry out emergency measures to restore land damaged by a natural 
disaster. Using EFRP, FSA provided targeted funding in FY 2018 for 
forest rehabilitation to owners of non-industrial private forest land 
across the nation resulting from disasters such as western wildfires 
and drought, southeast hurricanes, and tornados. FSA allocated over $13 
million in EFRP cost-share and technical assistance funds to ten states 
in FY 2018.
Enhanced Service through Closer Interaction with NRCS
    Building on a long history of working closely with NRCS on programs 
like CRP and ECP, FSA is very much focused on continuing to strengthen 
our existing relationship with NRCS and the Risk Management Agency 
(RMA) in the new Farm Production and Conservation (FPAC) mission area. 
With nearly 3,000 offices across communities nationwide, our employees 
continue to provide the information, tools, and delivery systems 
necessary for producers--in every state and territory--to conserve, 
maintain, and improve their natural resources. Together, we look 
forward to enhancing the service provided to our farming and ranching 
customers.
    Our conservation programs, along with those of NRCS, are part of 
the tremendous toolkit that FPAC, and USDA as a whole, provides to the 
original American land stewards, U.S. farmers and ranchers, to support 
their agricultural operations.
    Thank you for allowing me the opportunity to provide FSA's 
perspective on the role our conservation programs aid in delivering on 
Secretary Perdue's four guiding principles: to maximize the ability of 
American agriculture to create jobs, sell foods and fiber, and feed and 
clothe the world; to prioritize customer service for the taxpayers; to 
ensure that our food supply is safe and secure; and through the support 
of programs and assistance like those described today, to maintain good 
stewardship of the natural resources that provide us with our 
miraculous bounty.
    Madam Chair this concludes my statement. I will be happy to answer 
your questions and those of the other Subcommittee Members.

    The Chair. Thank you both for your testimony.
    Members will be recognized for questioning in order of 
seniority for Members who were here at the start of the 
hearing, and after that, Members will be recognized in order of 
arrival.
    I would like to begin by recognizing Chairman Peterson of 
Minnesota.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Madam Chair.
    Mr. Fordyce, we found out yesterday afternoon, and you 
apparently have announced that at 10:00 this morning that you 
are going to open up the continuous using the existing 
regulations. How do you think you have the authority to do 
that? And I just want you to know that if you do, I am going to 
stop it somehow or another.
    This program has been hijacked by the continuous stuff and 
the CREP stuff, which means we are going to have some exposure 
to what has been going on here, but I am tired of it.
    And so you are delaying the general signup to December for 
some reason because you have to do regs. Why don't you have to 
do regs on the continuous? What rationale are you using down 
there?
    Mr. Fordyce. Well, Mr. Chairman, thanks for the question. 
It is good to see you.
    My response to that would be after thorough analysis, FSA 
has determined that CRP continuous and CREP sign-ups may be 
opened under limited circumstances prior to publication of the 
regulation.
    FSA is also working to ensure subsequent to the updating of 
rental rates and publication of the CRP regulation, a general 
signup will be held in December of 2019.
    The Secretary and I are committed to meeting this timeline 
within the law.
    Mr. Peterson. Why, if you can do it for continuous, why 
can't you do it for general? What is the rationale?
    Mr. Fordyce. Well, I would say that we are continuing to go 
through those decisions on the general signup. The rental rate 
piece, some of the other things that don't necessarily enter 
into those continuous----
    Mr. Peterson. Well, did you guys not get the message out of 
the farm bill? For the continuous, the signup has been $134 an 
acre, the general is $52.
    What you are going to end up doing here is you are going to 
create a situation where farmers are going to go out there and 
do everything they can to get in, when they find out about 
these new rental rates, to get into the continuous because they 
are going to get three times as much as they would get if they 
get in the general. And that is just going to suck more acres 
up into the continuous that are not going to be available for 
the general.
    Now, maybe some of this stuff does some good in terms of 
water quality and so forth, but it does almost zero good for 
wildlife. These small strips are not doing anything for 
wildlife. The only thing that does are big tract CRP, which is 
what you get out of the general.
    And one of the reasons we have had trouble around the 
country is because we have eroded the general CRP and gone to 
continuous. I am serious, and I don't know what we can do to 
stop you. If I have to sue you, I will. This is not right and 
if you can do continuous without regulations, then you can do 
general without regulations.
    And I don't think farmers at this point understand what is 
going to come under the new rules, but they will find out. They 
are always smarter than we are, and you are going to create a 
situation here.
    I don't know. The statement you gave me is not satisfactory 
to me. And maybe you need to have the Secretary call me or 
somebody, but I do not buy what you are saying, and I don't 
think you have to do this.
    Message delivered, and also some of this easement stuff 
that you guys have been doing, some of this stuff was done 
before you got there; but, they are adding easements onto these 
continuous sign-ups and CREPs, that are just out of line, and 
we are going to be doing a hearing on this too in the full 
Committee as soon as we get all the facts on the table.
    I just want you to know I am watching you.
    One other thing. It says in here you are also going to 
delay the sign up for the GRP for some reason, and I don't know 
what that is for; but, we have doubled the size of that program 
and that is something that would be available to a lot of 
people. I don't see any reason why that should be delayed 
either if you are going to be able to do this with the 
continuous.
    I just want you to take this message back and if you guys 
don't correct this, I am going to figure out what we can do 
here to change it.
    Thank you, Madam Chair.
    The Chair. Thank you, Mr. Chairman.
    After hearing from the Chairman, I am going to resume 
calling on my colleagues, back into the order of for 
questioning.
    And I will begin with recognizing myself for 5 minutes.
    The 2018 Farm Bill made a number of important changes to 
the title II conservation programs.
    Chief Lohr and Administrator Fordyce, can you both start 
off by providing us with an update on the implementation of the 
farm bill conservation programs? In particular, I would like to 
know when do you expect the first and the last rules to be 
published?
    Mr. Lohr. Thank you, Madam Chair, for your question and 
again for having this hearing today.
    You are right. Congress was extremely generous in proving 
their commitment to conservation with the funding that was 
delivered to the programs, and we certainly thank you for that.
    We started working the day after the farm bill was signed 
into law, in December, to create the rules and regulations for 
the farm bill. As you know, it is quite a lengthy process. 
Literally the next day we began assembling our teams, our 
review teams, and throughout January up until now they have 
been working diligently to go through the entire process.
    We are making great progress. I think we are definitely on 
track. Our goal is to have these rules, the interim rules, 
formulated by the first quarter of the new fiscal year. I think 
we are on track to make that happen.
    Of course, as you know, the current farm bill programs, our 
farmers haven't had any gap in service, because based on the 
extension of the 2014 Farm Bill they have been able to continue 
as normal this year. The rules that we are writing will take 
effect for 2020, so 2019 everything runs as before.
    Just a quick update on CSP: We had our deadline that closed 
on May 10 of signup, so farmers were able to sign up for CSP 
contracts, and some changes that the farm bill made to CSP, it 
shifted from instead of an acres cap to a dollar cap, and 
approximately $700 million a year next year will be for CSP.
    There is also a new component called CSP grassland which 
there is some talk about we are working with FSA to take land 
that has been not cropped for the last 9 years that is not 
eligible for RPLC payments, they can enroll it in a CSP 
grassland program and be paid $18 a year. There will be more 
details about that program coming up later.
    EQIP, kind of our flagship program, again as it was said 
earlier, increased funding support up to $2 billion by the end 
of the farm bill in 5 years. Some of the priorities we are 
working on is how we can serve better the historically under-
served populations by approving advanced payments of 50 percent 
before the practices begin.
    We are in the process of reviewing those conservation 
practice standards which should take place later this year 
and----
    The Chair. Great. And Chief Lohr.
    Mr. Lohr. Yes.
    The Chair. If I could just thank you very much for some of 
those details. But getting back to the dates for the rules to 
be published, do you have a specific timeframe? You said by the 
first quarter. And so my question is, many of the programs are 
allowed to continue operating under the existing rules until 
the end of Fiscal Year 2019, so do you all have plans in place 
or what are the contingencies available if the relevant rules 
are not done when the fiscal year ends in September?
    Mr. Lohr. Sure. It is certainly our goal to work towards 
making that happen. We hate to put ourselves in a box and say 
it will be done by October 1, but that is certainly our goal 
and we are working hard to make that happen.
    The Chair. Okay. Well, certainly from a Committee 
perspective or Subcommittee perspective, I would like to make 
sure that we stay apprised of the timing for those rules.
    Mr. Lohr. Yes.
    The Chair. And when they will be published so we know the 
impact on those producers who rely on those vital programs.
    Mr. Lohr. Absolutely.
    The Chair. Chief Lohr, as you know, as a fellow Virginian, 
parts of Virginia are on the Chesapeake Bay watershed. I know 
your farm is as well.
    The Regional Conservation Partnership Program, RCPP, brings 
conservation partners and USDA to the same table to support 
farmers and ranchers as they address shared natural resource 
concerns.
    RCPP programs like the Farm Stewardship Project in my 
district support increasing the use of cover crops and reduced 
tillage.
    Unfortunately, since RCPP started in 2014, the Chesapeake 
Bay watershed has seen reductions in NRCS funds supporting 
critical in-the-field conservation work.
    How will the farm bill changes enable us to build new 
successful RCPP partnerships in the Chesapeake Bay watershed?
    Mr. Lohr. Well, that is a great question, and RCPP actually 
is one of my favorite programs that we administer here because 
it is a collaborative effort of bringing various partners and 
stakeholders together. The change is very quick in RCPP. It is 
going to a national dedicated funding at $300 million a year.
    The money is going to be half divided between state RCPP 
projects and the other half is going to be in those targeted 
areas which the Chesapeake Bay watershed is one of them. There 
are opportunities available.
    Like I said, $150 million will be spread out across those 
targeted areas and it is a ranking process, so it certainly 
encourages the partners that are located within the Chesapeake 
Bay to put their proposals together.
    We will be announcing signup deadlines later in the year, 
but I agree and certainly being a farmer within the Bay 
watershed, it is important that we can have these great 
programs in action taking effect to better improve the quality 
of the water in the Bay.
    The Chair. Thank you very much.
    I now recognize Ranking Member LaMalfa from California.
    Mr. LaMalfa. Thank you, Madam Chair.
    Chief Lohr, in my district in addition to the Federal land, 
there are many thousands of acres of family-owned forests that 
are--as we see--at high risk of catastrophic wildfire year 
after year.
    Many landowners, they want to do the right thing and treat 
their land, but at over $2,000 an acre it is out of reach under 
some types of conventional thinking.
    How is NRCS able to support these family forest owners that 
have this challenge, and how many forest owners have you had a 
chance to work with, and on how many acres so far in California 
have you had a chance to implement?
    Mr. Lohr. I certainly appreciate the question and you are 
right. The wildfires across the West and especially in 
California have truly been devastating both on a public scale 
and a private land scale as well.
    I would say first of all, our EQIP Program that I mentioned 
earlier, the Environmental Quality Incentives Program, kind of 
works two ways.
    Forest landowners, before a disaster, can certainly put 
conservation practices on their forest lands through EQIP, 
whether it be conservation plans or looking at forest 
management practices or doing prescribed burns.
    There are EQIP dollars that are available for farmers that 
they can do certainly before a disaster, but then once a 
disaster happens, EQIP can also be used again. Although it is 
not intended to be a disaster relief program, there are funds 
available through EQIP that help in times of disasters as well.
    And so certainly again, being able to look at how do you 
remove the burned timber, replanting trees, or improving soil 
erosion that takes place after these wildfires, there are EQIP 
cost-share dollars available to landowners who are facing that 
situation. Certainly, I would encourage your farmers to reach 
out to one of our local NRCS offices.
    I don't have an actual number of acres that have been 
affected in California that have actually worked through our 
NRCS offices. I would be happy to----
    Mr. LaMalfa. That is all right. I don't expect you to have 
an exact number, but do you feel like it is getting to the 
ground? Are people taking advantage of it in significant 
effect? Yes?
    Mr. Lohr. Yes.
    I do know that there are EQIP programs or projects that are 
in place, and I would certainly--I don't know if you have met 
our State Conservationist, Carlos Suarez. If not, I think it 
would be a great opportunity to make that connection for you, 
as he oversees all of NRCS in the State of California.
    But yes, as far as digging in to making sure that the 
farmers and the forest landowners in that area are aware, 
certainly the staff in those areas know that when these 
situations happen, they do their best to reach out to the 
landowners to make sure they know their services are available 
and working through our partners as well.
    Mr. LaMalfa. All right, thank you.
    Mr. Lohr. Thank you.
    Mr. LaMalfa. And for both of you, Administrator Fordyce as 
well, often times we have environmental groups, others that 
point towards regulations as the only way to achieve 
conservation results, and seeing in my own backyard, my own 
district, we have seen a lot of great work done along with NRCS 
and FSA that has made improvements on ESA recovery for species, 
wetlands, and streams, and many other things in the program. I 
am in the rice industry but others are conserving water, like 
fish screens.
    Can you give me your opinion on how you think the voluntary 
conservation would actually have a better track record than the 
regulatory hammer that so many folks are worried about? Because 
I see a lot of volunteerism on there, people doing things on 
their own to provide fish passage and fish safety and fish 
screening, a lot of other things. Please?
    Mr. Fordyce. Well, that is a great question and something I 
know that the Chief and I in our current roles and in actually 
in our previous roles talked a lot about, and that is that 
concept of voluntary conservation. And I do believe that we 
will gain far more benefits through a voluntary conservation 
approach as opposed to a regulatory approach.
    I think that agriculture, in general, for decades have been 
some of the most fervent conservationists from a voluntary 
perspective. And I mentioned in my opening testimony that 
farms, these lands are a legacy. They are a history in these 
families and they want to improve them and make them better 
than they were than when they first took them over. And so I do 
believe the concept of voluntary conservation will get us more 
advancements and more successes than taking a regulatory route.
    Mr. LaMalfa. Okay. Thank you. Quickly, as I have a little 
time left.
    The issue with finding markets for wood coming off the 
forest here, whether it is post-wildfire that was salvaged, 
what is NRCS able to do to help make more markets and take more 
advantage of biomass?
    I am going to have to let you think about that one. Maybe 
we will get a second round.
    Thank you.
    The Chair. I now recognize the gentlewoman from Ohio, for 5 
minutes.
    Ms. Fudge. Thank you very much, Madam Chair, and thank you 
both for your testimony this morning.
    Mr. Fordyce, the amount of land owned by African Americans 
has plunged over the past century from about 15 million acres 
now down to about 2 million. And you may or may not be aware 
that 40 percent of that land is heir property and has been left 
out of this process for some time.
    However, in the 2018 Farm Bill, there is language that 
allows them to participate. It enables them to qualify to get a 
farm number so that they can participate in the programs.
    What specific outreach or strategies have you used to let 
these farmers know that they are now qualified, and when did 
you start it, or if you haven't when are you going to start?
    Mr. Fordyce. Well, thank you for the question, and you do 
bring up a very important point that since I have been there 
almost a year, that topic has come up in my visits across the 
country. I very much appreciate the language in the farm bill 
that will help us address that as well.
    I know that we are talking through the process as to how we 
will implement it. From an outreach perspective we have a very 
robust outreach program.
    We have an outreach coordinator at headquarters here in 
Washington, and she has a few staff here in Washington, but we 
have outreach coordinators, public affairs and outreach 
coordinators----
    Ms. Fudge. I don't want to cut you off, but I just want to 
know what it is you are doing to do the outreach.
    Mr. Fordyce. When? We are in the process of doing that 
outreach as we speak.
    Ms. Fudge. Thank you very much. You are contacting these 
farmers with the heir property? You know who they are and you 
are making contact with them?
    Mr. Fordyce. That I can't answer. I don't know the specific 
mechanism by which we are doing that, but----
    Ms. Fudge. Could you get back to me and let me know?
    Mr. Fordyce. Yes, ma'am, I will. Yes.
    Ms. Fudge. Thank you so much.
    I live on the Great Lakes. I live in the State of Ohio. 
Water quality is a major concern for us as we get our drinking 
water from Lake Erie.
    We have had problems in the past with nitrogen and 
phosphorus runoff, which has led to toxic algae blooms which I 
am sure you are aware of.
    I was very excited about the fact that in the farm bill we 
did include provisions that provide farmers and ranchers with 
additional incentives to address and improve water quality.
    Can you both just briefly touch on the programs that are 
available to do this and if you think that they are being 
successful or will be successful? Included in that, if you 
could talk just briefly about the Source Water Protection 
provisions in the bill and the CLEAR 30 (Clean Lakes, Estuaries 
and Rivers (CLEAR) Initiative) Pilot?
    Mr. Fordyce. I will take the first stab at that, 
Congresswoman.
    The Under Secretary and I had traveled last summer to 
Michigan and Ohio in the western Lake Erie basin area to look 
at the CREP Program, the Conservation Reserve Enhancement 
Program, and the adoption of producers there. It has a high 
adoption rate. A lot of producers are participating.
    I met with some other community members in that western 
Lake Erie region, and while it is probably a little too early 
to tell what kind of gains we are getting from doing that, we 
know that they are positive gains, a little hard to measure at 
this point, but certainly a popular program and is working 
toward reducing sediment and nutrients that are ultimately in 
that watershed.
    Ms. Fudge. Mr. Lohr?
    Mr. Lohr. Thank you, ma'am, and I will be brief because 
NRCS has many programs that really tackle this problem.
    First of all, it was mentioned RCPP, the Regional 
Conservation Partnership Program, one of our most successful 
projects because of the number of partners that it brings in 
addressing large scale watershed areas like this. Within RCPP 
farmers then are able to participate with EQIP contracts that 
allow them to focus on specific water quality issues, whether 
it be stream fencing to keep livestock out of streams, whether 
it be working on cover crops to make sure that the soil stays 
in place to reduce sediment runoff, different types of tillage 
practices, going to a no-till again which reduces runoff.
    RCPP is one of those programs that again, it multiplies the 
dollars three or four times with lots of partners.
    I mentioned EQIP. There are 169 practices that we have 
within the EQIP Program. Many of those focus on water quality 
to give farmers, again specific cost-share opportunities to 
make sure that they are protecting the resources, again keeping 
the water as pure as possible. Conservation easements are--
sorry.
    Ms. Fudge. No, I was just going to say----
    Mr. Lohr. Yes.
    Ms. Fudge. Thank you. I just want you to be aware that we 
are watching, because it is an important issue for us.
    Mr. Lohr. Thank you.
    Ms. Fudge. And I would close with this, Madam Chair.
    As the Chairman of the Full Committee had said, we just 
expect for you all to uphold the letter and the spirit of the 
law. We just passed a farm bill and certainly we would 
appreciate if you would not ignore our will, the will of 
Congress, for your own.
    I appreciate that. Thank you so much.
    I yield back.
    The Chair. Thank you. I now recognize the gentlewoman from 
Maine, for 5 minutes.
    Ms. Pingree. Thank you very much, Madam Chair. Thank you to 
you and the Ranking Member for holding this hearing today, and 
to both of you being in front of us, and thank you both for the 
work that you are taking on. Welcome to your relatively new 
jobs.
    The programs that you administer and the work that you do 
is critically important in my State of Maine. I am very proud 
to represent Maine where we have had somewhat of a renaissance 
of farming in our state after losing some of our ground. People 
are coming back. We have a lot more young farmers in farming 
today. We have land that is coming under cultivation, families 
finding new ways to preserve their farm, and a lot of people 
taking advantage of new markets. And much of it is because of 
the programs that you administer and their ability to access 
them. Thank you so much for that.
    I am really interested in the intersection of climate 
change in agriculture and with this resurgence of interest and 
a lot of things being written about climate change, sometimes 
the first thing we go after is the farmers. And while there are 
practices that need to change in agriculture, people often 
don't understand that soils have the capacity to store a 
tremendous amount of carbon as well as the plants that we are 
growing, and farmers really need to be our partners in climate 
solutions. And through the programs you administer, you are 
already promoting many of the very things that we need farmers 
to do more of.
    I would love to hear you talk a little bit about voluntary 
programs like EQIP and how their incentivizing farmers to do 
this and how we can be ramping up some of those soil health 
practices, and how you are thinking about it going into the 
future?
    Let me just throw in my follow up on there, and I would 
love to hear from you both, but a little bit for you Mr. Lohr. 
In order for farmers to be in a position to participate in some 
of the carbon markets that we anticipate they could be a part 
of, we are going to need some verified ways to recognize what 
they do, and I am glad to hear you talking this morning about 
the soil health demonstration trial because that is a critical 
part of it. But if you want to dig in a little bit deeper about 
some of the ways we can recognize and administer in the role 
that USDA might play in that.
    So, go to it.
    Mr. Lohr. All right. Thank you very much for your question, 
and I appreciate you recognizing the efforts that farmers in a 
positive way are doing to help mitigate climate change, because 
you are right, there are a lot of the things that we do already 
as conservationists which have a positive impact towards 
mitigating climate change; making sure that we keep the ground 
covered with cover crops making sure that there is grass on the 
ground, that our forests are healthy. Healthy soil reduces 
erosion in times of disaster.
    As you said, the practices that our farmers are already 
engaging in, especially through EQIP and those conservation 
practices, are going a long way already towards being able to 
mitigate climate change and sequester the carbon that is in the 
air.
    We have about 25 plant material centers across the country 
that are administered by NRCS staff, and these are many 
research areas as well where they are able to see which cover 
crops are the most effective, constantly looking at practices 
that can be adapted by our farmers across the country, again to 
mitigate that climate change.
    And you are right, with the CIG grants, there have been 
trials before that have been done to focus on the trading of 
carbon credits. That is the point of CIG. It is innovative. It 
is new ideas. And these on-farm trials, these demonstrations, 
again with the soil health component, will go a long way 
towards looking at creating new practices that can be 
replicated, again towards tackling this issue.
    Mr. Fordyce. I think the Chief answered that question very 
well from a farmer perspective, from NRCS's perspective.
    From FSA's perspective, I think that if you look at the 
number of acres of CRP that are enrolled, 22\1/2\ million 
acres. Just in 2017 alone, CRP reduced carbon, emissions of 
carbon dioxide, by an estimated 34 million metric tons. It is 
the largest carbon sequester program of any Federal program, so 
certainly I think that is important.
    I might just add just from a personal perspective, on our 
farm we use cover crops following corn or soybeans. We also 
have a small CRP contract, but the Chief really laid it out 
really well. The efforts of agriculture, the efforts of 
farmers, again from that voluntary perspective I think are 
really, really making a dent in some of the issues that you 
referred to.
    Ms. Pingree. And just quickly. I am going to run out of 
time. But, Mr. Lohr, in the Soil Health Demonstration Trial, 
what do you think are some of the most promising ways to 
develop tools to measure what is going on in the soil so that 
farmers can have a outcome-based measurement?
    Mr. Lohr. That is a great question, because again, we have 
to be able to capture the work that is being done.
    I will mention, we also have what is called the CEAP, the 
Conservation Effects Assessment Program. This is again, a 
program we have across the country that partners with other 
agencies and entities to best try to measure ways and collect, 
and one of the emphases through CEAP is how we can best track 
and collect that data.
    Ms. Pingree. Great. Thank you. Thanks, Madam Chair.
    The Chair. I now recognize the gentleman from Georgia, for 
5 minutes.
    Mr. Allen. Thank you, very much, Madam Chair. And I want to 
thank our guests for being here.
    Yes, it is my belief that our farmers and ranchers across 
this nation are the true conservationists because they depend 
on the land, the work day in and day out of caring for their 
land and ensuring its health and vitality, and they do this and 
they have for generations.
    USDA conservation programs also play an important role in 
these efforts.
    My constituents in Georgia's 12th District contact my 
office regularly asking for more information on the different 
programs available to them as they continue to seek more ways 
to enhance their current practices on their lands to not only 
improve cultivation, but to help conserve and provide for 
wildlife.
    This is for both of our guests this morning.
    What are the biggest obstacles agricultural producers face 
when they attempt to adopt new practices that have been 
encouraged on their land?
    Mr. Lohr. That is a great question. And I will be brief.
    I was in North Dakota last week visiting with a farmer in 
the Red River Valley, and he was very progressive in his 
approaches, but he was trying things that were clearly outside 
the box where none of his neighbors were joining suit. And I 
asked him that very question. How can we get more farmers to 
implement good conservation?
    And it really takes by a farmer understanding the 
importance of soil health, being able to understand and then be 
that farmer that is in the community on the cutting edge to be 
able to model for other farmers as well.
    Certainly cost is always an issue, but again, through our 
programs with cost-share monies, we provide opportunities in 
some cases up to a hundred percent, but clearly we try through 
our conservation programs through our various partnerships is 
to eliminate the cost as much as possible. Cost is one.
    Not having the proper information. Again, we have soil 
health scientists that are around the country that try to put 
on seminars and workshops and field days, partnering with 
extension agents and universities to try to get the word out so 
farmers understand the practices that are available and the 
programs that are available.
    A combination of it is hard to break that cycle of it has 
never been done before and cover crops won't work, or we can't 
use no-till conservation here, but we have to have soil health 
champions that are willing to be on the leading edge. We have 
to have our staff that is willing to be engaged to tell the 
story, and we have to rely on our partners, again to show that 
these opportunities are out there.
    Mr. Allen. Anything to add, Mr. Fordyce?
    Mr. Fordyce. Yes, Congressman.
    I would echo what the Chief said; but, farmers in general 
are early adopters of technology. They are early adopters of 
conservation practices because there is that philosophical 
desire to do the right thing.
    And I would say that a lot of conversations that I have had 
long before I had this job was that there has to be patience. 
There has to be patience and there has to be that network as 
the Chief referenced, whether it is Federal agencies, land-
grant universities and other partners that help us get 
conservation on the land and adopt those new technologies and 
those new practices.
    But a lot of times it is patience.
    Mr. Allen. Do you see as a follow up--obviously we are here 
to listen today and to react to the needs of our constituents 
and particularly in agriculture. What can we do as a body, as 
the House of Representatives on both sides of the aisle, to 
help you with these challenges?
    And that is for both of you.
    Mr. Lohr. Well, I think you certainly went a long way 
towards joining that with the passage of the farm bill. The 
conservation title was extremely generous and we are as an 
agency, along with FSA, are excited to get these rules and 
regulations written so we can streamline, that we can look at 
how we can better serve all of the facets of agriculture.
    I appreciate the support you guys have done. I think now 
having hearings like this are great, because hopefully this 
hearing will be picked up and the media will talk about the 
things that we have done, and hopefully there will be folks out 
there around the country that will listen and understand and 
learn about maybe programs and agreements that are out there 
that they didn't know about.
    Mr. Allen. Communication is key?
    Mr. Lohr. Absolutely, sir. Absolutely.
    Mr. Fordyce. Well, I think communication absolutely.
    Mr. Allen. Or education, educating our folks out there to 
what is available.
    Mr. Fordyce. And I might just go one step further. I think 
there is a really good story to tell in agriculture, whether 
you are from Georgia or whether you are from Virginia or 
California or Maine, and the Members telling that good story 
and talking about the good things that are happening in 
agriculture across this country can certainly help go a long 
way too.
    Mr. Allen. Thank you. It is a good story. Thank you very 
much.
    I yield back.
    The Chair. Thank you. I thank the Members for their 
questions, and we are going to proceed with a second round of 
questions for the Members who remain here.
    And so I begin by recognizing myself for another 5 minutes.
    For both of the witnesses today, sometimes producers will 
have a main point of contact at either NRCS or FSA, and so they 
will go to their regular agent with an issue, but it may be 
actually that their issue is covered by the other agency.
    I have heard personally from my constituents about cases of 
lapsed communication where a conservation issue that they could 
have gotten assistance for was actually not addressed because 
the agency they approached first didn't refer them or the 
agency wasn't able to address their question.
    Could you both address how you will encourage communication 
between your field agents in the same region and how the farm 
production and conservation reorganization will impact this 
issue?
    Mr. Fordyce. Absolutely. And, Madam Chair, that is an 
excellent question and it is something that the Chief and I 
visit about a lot.
    We collaborate, not only the Chief and I, but our staffs 
here in Washington. When the Secretary had a vision of bringing 
together a new mission area that brought together the three 
agencies that are the most farmer-facing. RMA, NRCS and FSA to 
come together as one mission area and really, really work hard 
on collaboration and put a focus on if we are going to provide 
exceptional customer service to our farmers, ranchers, and 
forest stewards across this country, those three agencies have 
to be lockstep and working together. I think that message comes 
from the top, and the Chief and I certainly promote that and 
talk about that.
    NRCS has State Conservationists, we have state executive 
directors that are carrying that message as well about 
collaboration and working together.
    I know our Secretary would not be happy to hear that a 
producer went into an office and did not experience exceptional 
customer service, and so it is our responsibility to make sure 
that that happens. And I think with bringing the agencies 
together under one mission area, I believe in my mind that it 
is happening and, but we have some work to do maybe in some 
parts of the country to do a better job.
    Mr. Lohr. If I can comment again, if that is okay?
    We have roughly about 2,000 shared offices across the 
country between FSA and NRCS, and again, the goal for us is for 
a farmer to walk in the door who has an issue and the staff 
works back and forth both ways to direct them in the proper 
direction, whether they need FSA help or NRCS help as well.
    As the Administrator said, our vision is certainly to have 
that collaboration throughout the country, and again, if there 
are individual situations in offices where there isn't that 
collaboration, certainly we want to make sure that the area 
leaders and the state leaders know that we can address that 
because that is not the vision that we are trying to set from 
here in Washington.
    The Chair. I appreciate your work on that and I hope that 
we are able, we as Members of this Committee or Members of 
Congress, can ensure that our constituents understand where 
they can best go for services. And I thank you for your 
commitment to serving individual producers.
    For a second question, it is about the EQIP Program. The 
Environmental Quality Incentives Program or EQIP is widely used 
by farmers and ranchers in my district, and Chief Lohr, the 
most recent agricultural Census revealed some bright spots for 
conservation. More farms are implementing conservation 
practices, reduced tillage practices increased by 21 percent, 
and land planted with cover crops increased by over 15 million 
acres. This is very good news in the areas I represent in the 
Chesapeake Bay watershed.
    The 2018 Farm Bill does offer increased payment rates for 
cover crops resource-conserving crop rotation, and rotational 
grazing, and what plans are in store for the Department to 
promote these practices to farmers and producers?
    Mr. Lohr. And I appreciate your in-depth knowledge of what 
EQIP does. It is great to hear that you understand the program 
and you support it.
    As I said earlier, we are in the process now of formulating 
the rules and regulations that we will be rolling out later 
this year, and it is going to be exciting for farmers to 
actually see what is going to be available.
    Our job is to communicate and educate the best that we can 
starting here in D.C. with our public affairs team to 
administer press releases and working individually with our 
state offices all the way through to our district offices 
across the country.
    I can assure you that once we have new programs and 
exciting changes, we will do our best to make sure that we are 
being able to get the word out, starting with our State 
Conservationists filtered all the way down to our district 
offices through social media, through press releases, through 
partnering with other entities and partners so they can help 
spread the word as well.
    Again, this is good news. We are excited to have the 
opportunity, but it doesn't do any good if our producers are 
unaware.
    The Chair. Thank you very much.
    I now recognize Ranking Member LaMalfa, for 5 minutes.
    Mr. LaMalfa. Thank you again, Chair Spanberger.
    Back to Chief Lohr on the question I alluded to in the 
beginning.
    Again, we have a situation where we are importing a 
tremendous amount of timber and lumber products to this country 
and we have all this inventory, especially in the western 
states, that is burning up or at least causing a hazardous 
situation and causing more harm--the density of the forests is 
causing harm to it itself. Because if we are having a drought 
situation, then you can see that you are not going to have a 
winning combination there, trees starving for limited water 
supply.
    What we need in my view, and I want to see what your 
thoughts are on how we can develop more of the markets for the 
wood products that come domestically, help these family 
landowners and on public lands to feed the manufacturing and 
the biomass, which we need a lot more of on the green energy 
side of it.
    How can NRCS be helping, NRCS be working with more local 
markets, more domestic markets for utilizing biomass for 
energy, or the lumber, the timber that we still need in this 
country, and utilize more of what we grow domestically for own 
communities and our own economy and our own fire safety, for 
wildfire mitigation, et cetera?
    How can we kick that up significantly as what we are 
facing?
    Mr. Lohr. Well, I appreciate your question. It is certainly 
a good one.
    I will say I think the answer comes back to being able to 
look at partnerships.
    Obviously, we are in the conservation business, so our job 
is to work with the individual landowners to have the best 
conservation practices on their operation that they can manage 
their forests. When it gets into the marketing of products, 
that is a little bit out of our wheelhouse, but within USDA 
there are other agencies that focus on that. I would say the 
Agricultural Marketing Service, for example.
    Certainly, if there is a need that you can bring to us, we 
could certainly reach out to other agencies to try to begin a 
dialogue and kind of let them know the issues that we heard and 
see if there is some communications that can take place.
    But again----
    Mr. LaMalfa. Certainly, underlining domestically grown, 
domestically harvested as an offset for the inventory and the 
wildfire risk that is just making forests, so I will stop.
    Mr. Lohr. Yes. Well, I appreciate you bringing the issue to 
us. We will be happy to follow back up with you for more 
details and maybe our team can try to help get you pointed in 
the right direction with an agency that might be able to be 
able to take the lead in that.
    But we will certainly be able to follow back up.
    Mr. LaMalfa. Yes. And I know the Secretary is taking great 
interest in that as well.
    For both of you on the panel here as well, again, a lot of 
discussion about climate policy, maybe as regards to the Green 
New Deal. That is a bit of a moving target, but how are we 
going to specify this?
    There are a lot of concerns that some of these ideas of 
this policy would be pretty negatively impactful to farmers who 
I find by and large are the best stewards of the land that is 
in use, and always on the cutting edge of trying to utilize 
better practices. Discussions about dictating land use and 
maybe less and less beef or meat in our diets.
    Coming back to voluntary incentive-based success, can you 
speak to the success of how that relates to carbon 
sequestration and the wins we are having there when it is done 
integral with the voluntary activities or innovation that 
happens on the farm? Because what I find is that so many of the 
ideas do come from local innovation.
    Mr. Fordyce. Well, I can speak from FSA's perspective and 
NRCS and the carbon sequestration that takes place on the 22\1/
2\ million acres of CRP, and we mentioned that earlier, an 
estimated 34 million metric tons.
    But, what is interesting, that I found to be interesting 
since becoming the Administrator, is the amount of analysis 
that we do that supports or gives us information on the 
programs that we do.
    We have a group within the business center at FPAC that 
does analysis, environmental analysis, economic analysis of the 
programs that we do, again voluntary, voluntary programs from a 
producer's perspective, that are communicated out, and there we 
have access to those things that can really tell a story, tell 
the tale of what are we accomplishing.
    Certainly, I couldn't speak to those because they can get 
pretty technical, but we are measuring from the things that we 
do as an agency, but I know that other voluntary efforts that 
go beyond the things that NRCS or the things that FSA do, there 
are better ways to measure success. And so the more that we 
know, the more that we can document, and the more that we can 
prove goes a long way to telling the story about voluntary 
conservation.
    Mr. LaMalfa. Thank you. I yield back.
    The Chair. I now recognize the gentlewoman from Florida--
oh, I am sorry, from Maine.
    Ms. Pingree. A lot of Mainers go to Florida in the winter, 
and we want them to come back now. It is summer.
    Well, thank you. And I just want to thank Mr. LaMalfa for 
that question, because again, I think that is part of what I 
was trying to get at before.
    The first thing people say when they are talking about 
climate change is, ``Oh, you will never have a hamburger 
again,'' or kind of put this fear in and talk about the 
problems that they see farmers creating. And I really 
appreciate the work that is being done to help people 
understand the important role the farmers play in carbon 
sequestration, and appreciate you mentioning the CEAP program 
to me. I wasn't that familiar with it, so I will do a little 
work understanding that.
    But, there are a lot of ways that the USDA can be helpful, 
frankly, in helping people to understand just what the myths 
and what the truths are and the work you are already doing that 
is really extensive to help farmers sequester carbon. The 
sooner that farmers can participate in a carbon market, which 
could potentially be an extra source of income for them, which 
no farmer is going to say no to, it will be really helpful.
    Again, thank you for that and I will look forward to 
continuing to talk with you about that so we can kind of get 
people into the reality of what farmers do. But I really do 
think there is a big role for the USDA to play in promoting 
what you are already doing in a sense and helping people 
understand this climate debate in a different way, and putting 
farmers in a different light.
    I wanted to ask you about a different program. I am really 
interested in the Agriculture Conservation Easement Program, 
and I am really glad to see robust funding for that. I would 
just like to hear you talk a little bit about the importance of 
it.
    Administrator Lohr, you maybe have it on your farm, so you 
probably have some personal experience. I know it is just these 
easements have been really important in our state, and can you 
talk about their importance and what we can do with increased 
funding?
    Mr. Lohr. I will warn you, I get excited when I talk about 
easement, so I don't want use up the whole time.
    Ms. Pingree. That is good. You go right ahead.
    Mr. Lohr. But yes, so on our farm we placed permanent 
conservation easements 2 years ago. I have six children and it 
is important to me as a fifth-generation farmer that that land 
can stay in ag production forever.
    Our ACEP Program really has two components, the ALE which 
is the ag land component and WRE which is the wetland reserve 
component, so it allows some flexibility no matter where you 
are across the country or what your ultimate goal is to be able 
to make sure that land can be--the development rights can be 
taken away in the ALE example, and that land will have to stay 
in an agricultural use forever.
    The beauty of it is we have partners, so there are land 
trusts and agencies around the country that partner with us 
that provide cash matches and assistance and actually will hold 
the easements. And basically a farmer then will be compensated 
for the value of that development that they forego and then 
they are able to enhance the land, take that money and improve 
the operations. There have been so many success stories of 
farms that were able to take the money that they received from 
those development rights and invest it back into the business, 
to add an ice cream operation or some neat things like that to 
ensure that viability for the next generation.
    Ms. Pingree. Yes.
    Mr. Lohr. ACEP is one of my favorite programs to talk 
about.
    And then on the wetlands side, I was just in North and 
South Dakota last week and got to see land that is very 
environmentally sensitive. It doesn't make good environmental 
sense for farmers to try to farm this area when it is flooding 
every third year. There is a lot of erosion efforts that are 
being neglected, so the WRE allows them to basically, whether 
it is for 30 years or for a permanent easement, that land is 
taken out of production, restored back to the original wetlands 
and habit flourishes, native grasses flourish. It can really be 
a wonderful example of how the land was supposed to be.
    I think that the ACEP program accomplishes both of those 
missions with our working lands and with our wetlands. I am a 
proud supporter and proud to say that we have permanent 
easements placed on our farm forever.
    Thank you for the question.
    Ms. Pingree. No, that is great.
    Another important component of it that people don't often 
recognize as part of this climate change debate is that we are 
losing farmland quickly, and I can't remember the number off 
the top of my head, but it is like acres per hour. It is so 
much.
    But what people often don't calculate is that every time 
you lose an acre of farmland you are very likely increasing the 
climate change issue, the carbon in our atmosphere, because if 
it is turned over to development there is a very good chance 
that is more homes, more cars, more concrete, and less land to 
sequester the carbon. It just exacerbates the cycle.
    Very quickly as I am almost out of time, but do you want to 
say anything good about the climate hubs? We just visited with 
the University of Maine, our land-grant college, and they were 
just really excited about the relationship they have with the 
ten, one of the ten climate hubs, and there is a little bit of 
decreased funding among the Agriculture Appropriations 
Subcommittee, so we are anxious to keep that funding there, but 
it is kind of an accumulation of different agency funding.
    Can you talk about their importance as we move forward in 
this discussion?
    Mr. Lohr. Absolutely. Well, there are ten climate hubs 
around the country and they provide amazing data collection. We 
need to study what is happening with the environment, the 
impacts that the work that we are doing have on the climate. 
And again, it captures that information so we can make wise and 
informed decisions, so I think the climate hubs that USDA has 
are very important and I am sure there are many that would 
appreciate increased funding for them, so.
    Ms. Pingree. That is good. Thank you. I yield back.
    Thank you, Madam.
    The Chair. I now recognize the gentleman from Georgia.
    Mr. Allen. Thank you again, Madam Chair, for continuing 
this important conversation we are having.
    As far as USDA conservation, we have partnerships with and 
they provide a voluntary incentive-based way for a private 
landowner, farmer, or rancher to enhance these conservation 
practices.
    Some programs require partnerships with wildlife groups or 
land trusts to help foster these projects and conservation 
efforts on their lands.
    For those not familiar with this, on the Committee, can you 
provide an example of how these partnerships work and how they 
ultimately benefit the land, water, and wildlife habitats?
    Mr. Lohr. I will be quick. I don't want to take the 
Administrator's time.
    Again, another one of the neat projects that we do, there 
are several, Working Lands for Wildlife is one, the Healthy 
Forest Reserve Program, another one.
    I will just mention briefly, a couple weeks ago I was down 
in the panhandle of Florida near Pensacola and through RCPP and 
HFRP, they had an agreement with 4,000 acres through the 
Healthy Forest Reserve Program where they were able to partner 
with various groups and agencies, fish and wildlife, where they 
placed permanent conservations on almost 4,000 acres of land. 
They were able to put plans together to market and to make sure 
those forestlands are managed through the Long Leaf Pine 
Initiative. Very exciting stuff. They bring in the economic 
aspects, but the really cool part about these programs is the 
habitat component that you mentioned.
    The Gopher Tortoise is a threatened species in that part of 
the world, and they were able to partner with Fish and Wildlife 
to put habitat plots throughout the property to increase the 
opportunity for the Gopher Tortoise to thrive. That is just one 
example where it takes many different agencies, partners to 
come together to accomplish a lot of missions, but that species 
component and the habitat component is really a neat addition.
    Again, Working Lands for Wildlife is a similar program as 
well that combines lots of different partners together 
accomplishing good things at the end.
    Mr. Fordyce. I would just mention, Congressman, the 
Conservation Reserve Enhancement Program, and previous to the 
2018 Farm Bill the partners in the Conservation Reserve 
Enhancement Program were states. New language in the new farm 
bill allows for partners to be NGOs, for example, to be able to 
help offset the producers' costs, in some cases contribute to 
those, to the payment to the producer.
    But the fact that we are able to open that up to other 
partners I think it is going to be meaningful.
    In my mind when we open that up to other partners, we have 
talked a lot this morning about outreach and communication, and 
the more folks that we have that are participating from a 
contribution standpoint they are going to help get the word out 
as well, and not only get the word out about it is available to 
sign up, but also get the word out about the accomplishments 
that those practices are doing.
    I am very excited about entering into those new agreements 
with folks other than just states.
    Mr. Allen. How about on our federally-owned forestlands 
where we are having problems with management? Are we making any 
efforts to deal with that issue? I know that the farm bill did 
address some of those issues, but there is this big debate 
about, ``Okay, how do you manage it properly from an 
environmental standpoint.'' Have you addressed any of that?
    Mr. Lohr. Yes, sir. Obviously, public lands typically fall 
under the space of the U.S. Forest Service, but I will say that 
we do look for ways that we can continue to collaborate and 
partner, and one of the programs that we do is called the Joint 
Chiefs Landscape Restoration Initiative.
    There are two chiefs at the USDA, the Forest Service and 
NRCS, and this idea was born about 7 years ago where both 
agencies are able to put money together. There is a ranking and 
an application process that we could look at large-scale 
projects that involve both public and private lands together. 
Looking at how we can restore lands, we can again embrace 
wildlife habitat and really bring projects together that do 
encompass those public lands that you mentioned to have a more 
positive environmental effort.
    Again, we are always looking for ways to partner. Most 
public land restoration work, again with the Forest Service, 
but we certainly want to look for those opportunities of 
collaboration.
    Mr. Allen. Okay. Well, I am out of time.
    I yield back.
    The Chair. Thank you.
    Before we adjourn today, I invite the Ranking Member to 
make any closing remarks that he may have.
    Mr. LaMalfa. Could it be like on Jeopardy in the form of a 
question?
    The Chair. It may be.
    Mr. LaMalfa. Thank you.
    Just one last one for the panel. I do appreciate your time 
and your follow up that you will be providing for the Members 
of this Committee today. And again, to Chair Spanberger thank 
you for making this happen today.
    Coming back under EQIP where the farm bill created new 
authority known as the conservation incentive payments, we 
talked about simplified contracting authority. Many inquiries 
come in from our constituents about how this can be made to 
work and how they can also provide greater input on shaping 
these programs locally as region by region things are different 
crop by crop, et cetera.
    Can you give us any guidance just real quick, I don't want 
to take the whole 5 here, but on how to best have locally-led 
input as tailored to local producers, et cetera?
    Mr. Lohr. Thank you for your question, and the beauty of 
NRCS is we are locally-led. That has been our motto and our 
theme for almost 85 years, because all conservation begins at 
the local level.
    These conservation incentive payments is a new feature that 
we will be rolling out in 2020, but I would certainly encourage 
the producers who have an interest to get involved with the 
local work group. Every district office of NRCS has a local 
work group that meet. They shape policy that gets pushed up to 
the State Technical Committee.
    And as you mentioned perfectly, agriculture is so 
different, not only state to state, but locality to locality, 
so this is an opportunity for farmers to get involved with that 
local level and kind of share what is needed. What are the 
types of things that would make them be a more efficient and 
more effective farmer and then allow that information then to 
proceed up to the State Technical Committee to make those 
decisions on how best to implement those features.
    So, thank you for your question.
    Mr. LaMalfa. Okay, thank you.
    I like to get as much as I can out of a panel when I have 
you here, so thank you for your indulgence, Madam Chair.
    The Chair. Absolutely.
    I want to thank our witnesses again today for their time. 
This conversation is essential as we increase collaboration 
between the USDA, Republicans and Democrats in Congress, and 
farmers across our districts and our country.
    I am interested in exploring and expanding upon what works 
and I believe we have started down that path today.
    We have had great conversations about carbon sequestration, 
identifying heir farms, biomass for energy, domestic timber 
consumption, easements, and climate hubs, and the value of 
really data-driven discussions and decisions.
    And the programs we have been discussing today encourage 
farmers and landowners to pursue even more innovative ways of 
conserving our natural resources.
    All at once we can make our production more economically 
viable and more sustainable all while hearing directly from 
crop and livestock producers about their concerns.
    I thank Congressman LaMalfa. I thank all the Members of the 
Committee for being here today, and to the witnesses, thank you 
so much for your time and for your engagement.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Conservation and 
Forestry is now adjourned.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
                          Submitted Questions
Response from U.S. Department of Agriculture
Questions Submitted by Hon. Abigail Davis Spanberger, a Representative 
        in Congress from Virginia
    Question 1. On May 11, 2017, USDA announced the creation of the 
Farm Production and Conservation (FPAC) mission area as part of a 
larger Departmental reorganization. FPAC now includes NRCS, FSA, and 
the Risk Management Agency (RMA). Can you give the Committee an update 
on the merger of FSA, NRCS and RMA under the same mission area? What 
challenges or benefits have you seen with this new structure?
    Answer. Secretary Perdue established the FPAC Mission Area as part 
of the creation of the Trade and Foreign Agricultural Affairs Mission 
Area as provided for in the 2014 Farm Bill. Serving common customers--
the nation's farmers and ranchers--FPAC was created to deliver 
commodity, conservation, credit, crop insurance, and disaster programs. 
Under the domestic agriculture-focused Mission Area, we can focus on 
improving customer service, improving and streamlining program 
delivery, and using technology to meet growing producer interest in 
digital solutions.
    Since creation of the FPAC Mission Area in May 2017, the FPAC 
Business Center was established in October 2018 to provide enterprise-
wide mission support to FSA, NRCS, and RMA, which retained their roles 
and responsibilities while benefiting from a realigned focus on service 
to farmers and ranchers.
    A key success has been the creation of the farmers.gov online 
portal. When fully developed, our customers will have the option to 
transact business with FPAC agencies in an authenticated environment. 
Extensive information is available to the public through farmers.gov. 
In addition, FSA's borrowers can view significant information regarding 
their lending activity and producers were also able to enroll online 
for the Wildfires and Hurricanes Indemnity Program (WHIP) and the 
Market Facilitation Program.
    Another success has seen a significant increase in the 
collaboration of the three agencies as we strive to increase service to 
producers. WHIP required extensive coordination of policy and data from 
FSA and RMA.
    Under Secretary Perdue's ``One USDA'' concept, we have also been 
able to use workload and other data, as well as our valuable county-
level footprint to ensure that employee vacancies are placed in areas 
where they can be the most productive to service our customers.
    Internally, we have consolidated mission support functions into a 
FPAC Business Center to provide enterprise-level service and to free 
FSA, NRCS, and RMA to focus on mission delivery. The Business Center is 
also working on improving service through continuous process 
improvement of hiring, budget, information technology, internal 
reviews, fleet management, and office leasing.
    We have, for example, deployed vehicle sharing across the Mission 
Area which has increased utilization of our fleet. We have initiated an 
aggressive strategy to reshape and optimize our fleet including a fleet 
reduction effort in FY 2018 that eliminated 1,042 vehicles. We are 
working to achieve a fully optimized fleet by the end of calendar year 
2019 where vehicles achieve the departmental standard for miles driven 
per year and/or expected days of use. An optimized fleet will ensure 
FPAC has the right type vehicle for the needed work and the return on 
investment from these vehicles is maximized for customer service and 
the taxpayer.
    We are also reengineering internal business practices used by FSA, 
NRCS, and RMA to increase transparency, accuracy, and effectiveness of 
conducting internal operations which include manual and automated 
environments. These business practices range from Federal and non-
Federal hiring, budget formulation and executive, development and 
implementation of agreements, internal reviews, and other disciplines. 
Though reengineering is comprehensive and painstaking, we anticipate 
significant improvements over the coming months.

    Question 2. The 2018 Farm Bill provided extra tools to help farmers 
and ranchers tackle a variety of resource concerns. The Secretary, and 
rightly so, has focused a great deal of time and energy on customer 
service. However, staffing for both NRCS and FSA has continued to 
decline in recent years. What impact have these vacancies had on the 
ability to administer conservation programs?
    Answer. The FPAC Mission Area, including FSA and NRCS, recognize 
the critical staff capacity needed at the field level to meet customer 
needs by delivery programs and services. Both agencies established 
targets to ensure that a minimum of 90 percent of the workforce is in 
field positions and 90 percent of all positions are at General Schedule 
(GS) grades 12 and below (that is, customer-facing positions). While 
national-level positions are essential to providing policy direction, 
program development and administration, and oversight and 
accountability, customer-facing positions take precedence and represent 
the majority of FSA and NRCS hiring.
    It is a significant challenge to achieve mission delivery 
expectations, including implementation of a new farm bill. There are 
currently 1,744 new hiring actions in progress in FSA and NRCS alone. 
Of these new hiring actions, 471 selections have been made and 
candidates are in the process of on-boarding into their new positions. 
At the same time, FSA has almost 800 temporary employees and student 
trainees on board, while NRCS has 367. By later in 2019, we expect both 
FSA and NRCS to be much closer to their authorized position levels.

    Question 3. The 2018 Farm Bill authorized a new EQIP conservation 
incentive contract that provides annual payments for addressing 
priority resource concerns over several years. Mr. Lohr, are these new 
contracts available for the FY 2019 EQIP sign-up? How do these 
contracts differ from the CSP contracts? Have they had any impact on 
the FY 2019 CSP sign-up process?
    Answer. NRCS plans to offer the new Incentive Contracts in FY 2020 
upon publication of the EQIP interim rule. While the current interim 
rule is under review, NRCS is excited to offer this new enrollment 
opportunity to producers and is carefully examining options to ensure 
that it does not duplicate enrollment options available under the 
Conservation Stewardship Program (CSP). NRCS believes that the new 
Incentive Contracts can help bridge the gap between traditional EQIP 
contracts and CSP. NRCS believes that there are key differences between 
Incentive Contracts and CSP contracts such as contract length, specific 
targeting of resource concerns, and the extent of the operation that is 
included in the contract.

    Question 4. Mr. Lohr, in the broader debate regarding energy and 
climate policy options, agricultural and land use activities have 
played a central role. Many of the voluntary, incentive-based, farm 
bill conservation programs provide assistance to producers for 
activities that reduce greenhouse gas emissions and increase carbon 
sequestration. Can you provide some examples of successful practices?
    Answer. Here are a few examples of how producers are helping 
conserve natural resources.

  <bullet> Soil Health: NRCS recommends ten practices to boost soil 
        health, which improve soil organic matter; reduce emissions 
        from soils and equipment; and promote healthier soils 
        nationwide.

  <bullet> Nitrogen Stewardship: Farmers are reducing nitrous oxide 
        emissions and providing cost savings by focusing on the right 
        timing, type, placement, and quantity of nutrients.

  <bullet> Livestock Partnerships: Producers are using anerobic 
        digestors, impermeable covers, and other practices on dairy and 
        swine operations. Anerobic digestors are facilities that 
        provide biological treatment of animal waste in the absence of 
        oxygen. They help manage odors, reduce greenhouse gas 
        emissions, reduce pathogens, and capture biogas for energy 
        production.

  <bullet> Grazing and Pasture Lands: Ranchers using prescribed grazing 
        systems can manage for better forage as well as more climate-
        friendly and more resilient grazing lands.

  <bullet> Private Forest Management: In working forests, NRCS helps 
        forest landowners use sustainable forestry practices that yield 
        healthier, more diverse forests which provide for better 
        harvests and wildlife habitat and sequester carbon.

  <bullet> Conservation of Sensitive Lands: Through ACEP and CRP, NRCS 
        and FSA are helping conserve wetlands, grasslands, valuable 
        farmlands, and other sensitive landscapes. Restoring these 
        lands to native vegetation helps with carbon sequestration.

  <bullet> NRCS is also using the Conservation Innovation Grants and 
        other programs to better quantify outcomes of these practices 
        as they relate to carbon sequestration and air quality, as well 
        as better prepare producers who want to participate in 
        environmental markets.

  <bullet> NRCS is a core partner in the USDA Climate Hubs, which 
        ensure that farmers, ranchers, and forest landowners have 
        access to the best science-based information on management 
        practices, decision tools, and climate and weather data and 
        trends. They are assisting all USDA agencies in disseminating 
        information on-line and through networks and demonstration 
        plots.

    Question 5. NRCS conservation practice standards have long served 
as the foundation for agricultural conservation activity in this 
country. The farm bill requires NRCS to review each conservation 
practice standard and evaluate opportunities to increase flexibility in 
their application and use. Can you tell me what you are doing to ensure 
the agency is updating the current conservation practice standard 
process to enable an adaptive management process that works for more 
farmers and is able to keep up with the rapid technological change and 
the drive for innovation and experimentation in the field?
    Answer. Each national conservation practice standard is to be 
formally reviewed at least once every 5 years from its date of issuance 
or date of review. There are 169 conservation practice standards and 13 
innovative trial practice standards.
    Currently, NRCS is performing an expedited review of every national 
conservation practice standard as required by the 2018 Farm Bill. NRCS 
released a Federal Register notice soliciting public feedback on any 
current conservation practice standard on March 29, 2019. In addition, 
NRCS held a public hearing and is offering review opportunities with 
State Technical Committees, partners, and any other interested parties.
    NRCS received more than 100 comments on the Federal Register notice 
and is now reviewing comments and updating the standards. The expedited 
review and update are targeted for completion by December 2019.

    Question 5a. States can identify high-priority conservation 
practices to be eligible for higher 90 percent payment rates through 
EQIP. Will NRCS provide guidance to states on the types of practices 
eligible for higher 90 percent payment rates?
    Answer. Determining the amount of financial assistance available is 
a two-step process:
    Step 1:

  <bullet> NRCS uses payment schedules to document estimated incurred 
        costs and foregone income to arrive at a payment rate; and

  <bullet> Interdisciplinary teams develop regional scenarios to 
        produce State-specific payment schedules.

    Step 2:

  <bullet> The NRCS Chief delegates authority to the State 
        Conservationist, with input from State Technical Committees, 
        partners, or other stakeholders to set the payment percentage 
        for each program within each State and payment schedule; and

  <bullet> State Technical Committees and Local Work Groups make 
        recommendations specific to:

    <ctr-circle> Practices and program payment percentages for 
            conservation programs that support program objectives and 
            State and local priorities; and

    <ctr-circle> Program payment percentages documented in practice 
            payment schedules and maximum payment.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. Staffing for both NRCS and FSA has declined over the 
years. There is now an unusually large number of vacancies in local 
field offices. What impact have these vacancies had on the ability of 
both agencies in the administration of conservation programs and 
activities for farmers and ranchers? What actions is the Administration 
undertaking to address the vacancies and staffing shortages? Are the 
current resources meeting the demands of farmers and ranchers? How 
could they be improved?
    Answer. NRCS's authorized staffing level was 10,800 positions in FY 
2018. This reflected approval of 400 new, customer-facing positions in 
field offices. The President's FY 2019 Budget Request for NRCS reduced 
this figure by 882 positions because NRCS transitioned these mission 
support positions and associated funding to the newly established Farm 
Production and Conservation (FPAC) Business Center.
    We have a multi-pronged plan to aggressively address the Mission 
Area's hiring needs which includes:

  <bullet> Adding temporary surge support within human resources to 
        address the remaining hiring actions and reduce the number of 
        vacancies;

  <bullet> Establishing open continuous announcements for common 
        positions, such as Soil Conservationist, Soil Conservation 
        Technician, and Engineers. By current certificates of eligible 
        candidates, NRCS hiring managers can more readily identify, 
        select, and on-board qualified staff for these critical 
        positions;

  <bullet> Reengineering business processes to streamline Federal and 
        non-Federal hiring procedures to improve timeliness, 
        efficiency, and effectiveness;

  <bullet> Digitizing manual hiring processes to improve FPAC's 
        accuracy, efficiency, and effectiveness by building consistent 
        processes, roles, and responsibilities into system workflows[;]

  <bullet> Leveraging robotic process automation and other artificial 
        intelligence tools, where appropriate, to achieve even greater 
        accuracy, timeliness, and efficiencies especially for data 
        extraction and entry; and

  <bullet> Standardizing position descriptions which streamlines 
        classification of jobs and posting vacancy announcements.

    It is a significant challenge to achieve mission delivery 
expectations, including implementation of a new farm bill, at current 
staffing levels, but aggressive actions are underway to fill critical 
field positions. There are currently 1,744 new hiring actions in 
progress in FSA and NRCS alone. Of these new hiring actions, 471 
selections have been made and candidates are in the process of on-
boarding into their new positions. At the same time, FSA has almost 800 
temporary employees and student trainees on-board, while NRCS has 367. 
By later in 2019, we expect both FSA and NRCS to be much closer to 
their authorized position level as they catch up on historic and new 
attrition and the rate of hiring exceeds the attrition rate.

    Question 2. Conservation Technical Assistance (CTA) is the backbone 
of USDA's farm bill conservation programs. Through CTA funding, NRCS 
field staff is able to work directly with farmers to develop and 
implement personalized conservation plans. Please describe how CTA 
supports conservation practices on farms and ranches across the 
country.
    Answer. CTA Program funding is used to:

  <bullet> Provide conservation technical assistance to individuals or 
        groups of decision makers, and to communities, conservation 
        districts, units of State, Tribal and local government, and 
        others to voluntarily conserve, maintain, and improve natural 
        resources;

  <bullet> Provide collaborative community, watershed, and area-wide 
        technical assistance with units of government so they can 
        develop and implement resource management plans that conserve, 
        maintain, and improve our natural resources at appropriate 
        scales;

  <bullet> Provide conservation technical assistance to help 
        agricultural producers comply with the Highly Erodible Land 
        (HEL) and wetlands conservation (WC) compliance determinations 
        required under Farm Bill Conservation Compliance requirements;

  <bullet> Provide conservation technical assistance to aid private 
        landowners in complying with other Federal, state, Tribal, and 
        local environmental regulations and related requirements, and 
        prepare them to become eligible to participate in other 
        Federal, state, and local conservation programs;

  <bullet> Collect, analyze, interpret, display, and disseminate 
        information about the status, condition, and trends of soil, 
        water, and related natural resources so people can make 
        informed decisions for natural resource use and management;

  <bullet> Assess the effects of conservation practices and systems on 
        the condition of natural resources; and

  <bullet> Develop, adapt, and transfer effective science-based 
        technologies and tools for assessment, management, and 
        conservation of natural resources.

    Question 3. The President's FY20 budget proposal cuts 10%, or more 
than $70 million, from the Conservation Technical Assistance program. 
How would this proposed cut impact conservation on the ground?
    Answer. NRCS is committed to delivering conservation service and 
assistance in the most efficient and effective manner possible. Through 
our programs we are now able to leverage in-kind contributions, cost-
sharing, and matching funds that enable our agency dollars to go much 
further and with a wider impact.

    Question 4. Specific to general CRP, the most recent signup was 
conducted in FY16 with a record low acceptance rate of contacts at 18%. 
What plan does the Department have to utilize outreach and education 
efforts perhaps with stakeholders to optimize acceptance rates? 
Additionally, how does the Department plan to incorporate state-by-
state CRP allocations to bolster acceptance rates?
    Answer. The acceptance rates were reflective of the large number of 
applications received and the limited number of available acres 
remaining under the CRP enrollment cap. Currently, 22.4 million acres 
are enrolled in CRP which leaves 1.4 million acres available for 
enrollment.
    FSA is implementing a comprehensive communications plan for CRP 
including news releases, social media, and outreach. State allocations 
will be considered with the rollout of the CRP regulation implementing 
the 2018 Farm Bill.

    Question 5. As you know, I think we need a commonsense approach to 
easements. We should not spend Federal money to create private hunting 
reserves for individual landowners. We need better long-term management 
of easements, including farm bill easements. And, it needs to be clear 
who is responsible for managing the land. How will you get the word out 
to state partners and NRCS offices about better management of land 
under easement?
    Answer. When NRCS purchases an easement from a landowner, the 
agency does not pay full market value of the property. Rather, it pays 
for the bundle of rights it is purchasing from the landowner. Upon 
enrolling their farmed or converted wetland into NRCS' easement 
programs, the landowner reserves the right to undeveloped recreational 
use, such as hunting, fishing, and nature watching, and the right to 
control who accesses the property (other than NRCS). While landowners 
receive benefits through protecting their land with an easement, they 
also relinquish certain property rights. Once enrolled, these easements 
are restored and managed in a manner that provides large scale public 
benefits such as improving water quality, reducing flooding, recharging 
groundwater, sequestering carbon, creating habitat for threatened and 
endangered species, and protecting biological diversity. NRCS is 
currently updating its easement stewardship policies and designing 
staff and partner training on easement stewardship topics including the 
monitoring, enforcement, and long-term management of conservation 
easements. As NRCS's easement portfolio grows, so will the workload 
necessary to manage and maintain those protected acres and NRCS has 
increased the percentage of appropriated easement funds used to manage 
existing easements accordingly.

    Question 6. How will you implement the 2018 Farm Bill change 
authorizing incentives to increase public access to WRP and WRE land?
    Answer. NRCS is in the early stages of developing the next 
Voluntary Public Access Program--Habitat Improvement Program (VPA-HIP) 
funding announcement and is incorporating into the announcement the 
2018 Farm Bill incentive to increase public access to lands enrolled 
through the Wetlands Reserve Program (WRP) and the Wetlands Reserve 
Easement (WRE) component of the Agricultural Conservation Easement 
Program (ACEP). On May 6, 2019, NRCS also incorporated this priority 
for increasing public access to WRP and WRE in the VPA-HIP regulations 
through publication of the Miscellaneous Conservation Provisions 
Interim Rule.

    Question 7. What is the status of the Soil Health and Income 
Protection Program (SHIPP) and when can we expect the Department to 
announce a signup period?
    Answer. FSA continues to analyze the provisions of SHIPP under the 
2018 Farm Bill and will make announcements on plans to implement the 
pilot subsequent to publication of the CRP regulation this fall.
Questions Submitted by Hon. Marcia L. Fudge, a Representative in 
        Congress from Ohio
    Question 1. Mr. Fordyce, the amount of land owned by African 
Americans has plunged over the past century, from an estimated 15 
million acres to about 2 million nationally. According to the USDA, 
heirs property has been the leading cause of black involuntary land 
loss. The 2018 Farm Bill included a provision enabling farmers 
operating on land with undivided interests to secure FSA farm numbers 
and thereby qualify for farm and conservation programs. Mr. Fordyce, do 
you know who these farmers are and are you making contact with them?
    Answer. Regulations are still being written to specifically address 
the new heirs property Farm Bill Provision in Section 12615. Once 
program regulations are written and finalized, the Outreach office will 
conduct extensive outreach with national stakeholders and our 2,124 
County Outreach Coordinators and 51 State Outreach Coordinators will 
conduct outreach and informational sessions in States and counties 
across the country.

    Question 2. I appreciate all the work NRCS does to provide 
reliable, up-to-date information regarding the delivery of conservation 
programs. I also know NRCS is developing and expanding tools and 
metrics to assess baseline conservation levels and improvements over 
time at the landscape and field levels. Mr. Lohr, can you provide an 
update on the different ways through which NRCS is currently working to 
improve and coordinate conservation data collection? How do these 
efforts align with 2018 Farm Bill programs and related changes NRCS is 
rolling out in the year ahead?
    Answer. Since 2003, NRCS and its partners have conducted CEAP 
studies to quantify the environmental effects of conservation practices 
and programs and to improve our understanding of how to manage 
agricultural lands while also promoting environmental quality and 
wildlife habitat.
    By using a combination of national data sets, in-depth farmer 
surveys, assessments at multiple scales, and modeling techniques, CEAP 
has been able to document the benefits of voluntary conservation and to 
better target limited programmatic resources to where they will have 
the greatest impact.

    Question 3. Farmers and ranchers across the country, and in my 
district, are looking to access conservation assistance and benefit 
from many of the important changes included in the 2018 Farm Bill. 
During this time, it is critical that we are working to reach out to 
and support those who have historically struggled to access USDA 
assistance. This includes beginning, socially disadvantaged, limited 
resource, and veteran farmers and ranchers. I am pleased that the farm 
bill includes several important provisions to support these producers, 
including much needed improvements to the EQIP Advance Payment option, 
which provides all eligible participants the option to receive at least 
50 percent of their EQIP cost share up-front. This important step 
ensures these farmers and ranchers have the support they need to cover 
the up-front costs associated with implementing critical conservation 
practices. I understand that under the 2014 Farm Bill, many states did 
not offer the advance payment option, even though it was available 
nationwide. Mr. Lohr, can you provide an update on how NRCS is working 
to promote these improvements and the availability of the EQIP Advance 
Payment option, including education for field staff?
    Answer. The 2018 Farm Bill changes the advance payment amount from 
``not more than'' to ``at least'' 50 percent and adds a notification 
requirement for producers to be notified at the time of enrollment of 
the advance payment option, and that the producer's election be 
documented. In FY 2019, NRCS is making available advance payments at 50 
percent in coordination with the notification and election 
requirements. NRCS will address the availability of greater than 50 
percent as part of interim rule publication and FY 2020 implementation.
Questions Submitted by Hon. Tom O'Halleran, a Representative in 
        Congress from Arizona
    Question 1. As you continue to develop the interim final farm bill 
rules, will you recognize that a goal of the farm bill is to provide 
the tools and flexibility to meet the needs of drought-stricken areas 
in the west, consistent with legislative history?
    Answer. FSA and NRCS are aware of the unique needs of producers who 
have suffered due to drought and other disasters. We will continue to 
make every effort to provide the tools and flexibility needed by 
farmers and ranchers in these areas of the country consistent with the 
law.

    Question 2. Further, do you recognize recent unanimous 
Congressional approval of Drought Contingency Plan authorizing 
legislation, to support those seven state agreements, as demonstrating 
Congressional intent to address drought in the West? Particularly the 
Lower Basin States?
    Answer. USDA is committed to working with the Department of the 
Interior as they implement the Colorado River Drought Contingency Plan 
and enter into contingency plan agreements with the seven States.

    Question 3. Farmers in my district agreed to the DCP agreement, 
which included substantial voluntary forbearance of Colorado River 
surface water, in anticipation of Federal support for the plan. Can 
they trust NRCS to use the flexibility provided by the 2018 Farm Bill 
programs, such as EQIP, RCPP and Watershed Protection and Flood 
Prevention Act, to support communities in my district and state in a 
regionally equitable manner, that helps achieve the goals of the 
Drought Contingency Plan? I trust that you and the NRCS can be counted 
on to use every tool at your disposal to support that plan, and to 
generally address Western drought issues.
    Answer. NRCS recognizes the importance and complexity of addressing 
the needs of the agricultural community in the face of the long-term 
drought and the recently approved Drought Contingency Plan. Our 
leadership and staff in Arizona are working closely with farmers and 
other stakeholders in Maricopa and Pinal Counties most affected by 
anticipated reductions in water deliveries from the Colorado River. 
Specifically, they are working to develop flexible approaches to using 
our conservation authorities to address water quantity and other 
resource challenges that may include RCPP, the Watershed Protection and 
Flood Prevention Act, EQIP, CSP, CRP, and ACEP.
Questions Submitted by Hon. Chellie Pingree, a Representative in 
        Congress from Maine
    Question 1. The Conservation Stewardship Program (CSP) currently 
has over 70 million acres enrolled, helping producers improve their 
land through financial and technical assistance. This is an important 
program that was reauthorized by the 2018 Farm Bill. However, the 
President's FY 2020 budget proposal calls for eliminating CSP entirely. 
Mr. Lohr, can you talk about the impact that would have on 
conservation?
    Answer. Although the President's budget proposes to eliminate 
funding for new enrollments and re-enrollments in the Conservation 
Stewardship Program (CSP) in favor of conservation programs that have 
more documented positive outcomes, the President's Budget provides a 
total of $4.95 billion for NRCS conservation programs, including $4.2 
billion in mandatory conservation programs. In addition, the 
President's Budget also proposes to provide $1.67 billion to support 
new contracts, existing contracts, and reenrollments.

    Question 2. How many NRCS positions have been eliminated in the 
last 5 years?
    Answer. Positions have not been eliminated; however, like other 
Federal agencies, NRCS incurs attrition of staff each fiscal year 
because of retirements, employees moving to jobs with other entities, 
or separations for disciplinary or performance reasons.
    The table below shows the attrition for NRCS since FY 2014, 
including the ``year-to-date'' for FY 2019.

------------------------------------------------------------------------
             Fiscal Year                            Amount
------------------------------------------------------------------------
                   2014                                   952
                   2015                                   820
                   2016                                   848
                   2017                                   845
                   2018                                   970
                   2019                                   472
                                     -----------------------------------
  Total.............................                    4,907
------------------------------------------------------------------------

    The average per fiscal year (not including partial FY 2019) is 
887[.]
    NRCS's authorized staffing level was 10,800 positions in FY 2018. 
This reflects approval of 400 new, customer-facing positions in field 
offices. The President's FY 2019 Budget Request for NRCS was reduced 
this figure by 882 positions because NRCS transitioned these mission 
support positions and associated funding to the newly established Farm 
Production and Conservation (FPAC) Business Center.
    We have a multi-pronged plan to aggressively address the Mission 
Area's hiring needs which includes:

  <bullet> Adding temporary surge support within human resources to 
        address the remaining hiring actions and reduce the number of 
        vacancies;

  <bullet> Establishing open continuous announcements for common 
        positions, such as Soil Conservationist, Soil Conservation 
        Technician, and Engineers. By current certificates of eligible 
        candidates, NRCS hiring managers can more readily identify, 
        select, and on-board qualified staff for these critical 
        positions;

  <bullet> Reengineering business processes to streamline Federal and 
        non-Federal hiring procedures to improve timeliness, 
        efficiency, and effectiveness;

  <bullet> Digitizing manual hiring processes to improve FPAC's 
        accuracy, efficiency, and effectiveness by building consistent 
        processes, roles, and responsibilities into system workflows[;]

  <bullet> Leveraging robotic process automation and other artificial 
        intelligence tools, where appropriate, to achieve even greater 
        accuracy, timeliness, and efficiencies especially for data 
        extraction and entry; and

  <bullet> Standardizing position descriptions which streamlines 
        classification of jobs and posting vacancy announcements.

    Question 3. How much funding has NRCS provided to support the USDA 
Climate Hubs during each of the last 5 years?
    Answer. USDA Climate Hubs Program is supported by multiple agencies 
across the Department. NRCS funding to support the USDA Climate Hubs 
for the last five years is below:

----------------------------------------------------------------------------------------------------------------
                                    2015             2016             2017             2018            2019
                                Obligations      Obligations      Obligations      Obligations     Annualized CR
----------------------------------------------------------------------------------------------------------------
Total Climate Hub Funding         3,354,000        2,731,000        2,348,000        2,539,000        2,703,000
----------------------------------------------------------------------------------------------------------------

Questions Submitted by Hon. Doug LaMalfa, a Representative in Congress 
        from California
    Question 1. Section 2504 of the 2018 Farm Bill gives USDA interim 
authority to operate the conservation programs under the 2014 Farm Bill 
regulations for the remainder of this fiscal year. The purpose is to 
continue conservation delivery while working towards implementation of 
the 2018 Farm Bill changes. Will the department have the conservation 
programs up and running under the new rules by the end of September?
    Answer. FSA continues to work at analyzing the numerous changes to 
the text and structure of the Conservation Reserve Program statutory 
language and intends to publish the regulation in the fall of 2019.
    NRCS program teams are actively working on our new regulations and 
plan to have them all in place for the FY 2020 program enrollment 
periods.

    Question 2. For many of America's farmers and ranchers, their 
nearest NRCS office isn't even in their county. In the last 10 years, 
offices across the nation have closed, significantly limiting access to 
vital conservation resources. These roadblocks create a bottleneck in 
the process as money sits at USDA waiting to be utilized. What are you 
doing to ensure that agricultural producers are provided greater access 
to funding and technical assistance?
    Answer. NRCS has more than 2,500 offices in communities nationwide 
with almost 8,000 employees in field locations who provide information, 
tools, and direct assistance to producers with conserving, maintaining, 
and enhancing their natural resources for the betterment of their 
individual agriculture operations and their communities.
    In February 2018, FPAC released farmers.gov--a dynamic, mobile-
friendly website that delivers information, tools, and first-hand 
advice built around the needs of the people who grow the nation's food, 
fiber, flora, and fuel. The external website serves as the customer 
gateway and informational counterpart to an authenticated, 
transactional portal where USDA customers can apply for programs, 
process technical and financial transactions, and manage accounts. USDA 
has built farmers.gov around customer needs and ideas through a 
streamlined, farmer-centered approach--bringing the most usable 
information together in a new way.
    In March 2018, FPAC initiated a study to analyze its geographic 
footprint, workload, and productivity relative to customers' needs and 
locations. The Optimally Productive Office (OPO) study and tool 
provides for a data-driven evaluation of our customers and their needs, 
including their demographics, geographic locations, physiographic 
characteristics of their lands, and line(s) of business. It answers 
core questions such as:

  <bullet> Where are our customers, what are their greatest needs, and 
        how does that drive FPAC workload;

  <bullet> Are FPAC employees productive;

  <bullet> Which offices are servicing customers most efficiently and 
        effectively relative to its peers;

  <bullet> Are FPAC offices optimally located and staffed to deliver 
        quality customer service (to both current and potential 
        customers);

  <bullet> How can we optimize resources (e.g., staff, vehicles, office 
        spaces) and improve upon our ability to meet customer 
        expectations for quality service and technical outputs; and

  <bullet> Given customer locations and needs, are we utilizing current 
        office space efficiently and in a cost-effective manner?

    The primary outputs of the efforts are robust dashboards. The 
dashboards do not simply summarize rate data, they are sophisticated 
analytical tools that integrate a wide array of data sets, each with 
tens of thousands of data points, to show relationships and trends 
across otherwise disparate sources.
    The first phase of OPO, Productivity and Staffing, focused on 
historical customer demand (i.e., workload by program and activity), 
office productivity, and employees' geographical distribution. This 
allows FPAC leaders to focus hiring on where customer need is greatest 
and where leaders can ensure employees can be most productive.
    FPAC used this data to direct the distribution of over 3,000 hiring 
actions in FY 2018 and is doing the same in FY 2019. Additional 
metrics, including an average of 93 percent of hiring at GS-12 and 
lower grades, ensures that positions were deployed where the customer-
facing need is greatest.
    The next phase of OPO, Geographic Footprint and Asset Allocation, 
will quantify potential customers and unmet demand, analyze FPAC's 
geographic footprint relative to existing and potential customers, and 
optimize utilization of office spaces. The resulting tool will enable 
FPAC leaders to optimally deploy and manage their resources across the 
country.

    Question 3. One thing we can all agree on is the importance of 
voluntary conservation. It allows agricultural producers to improve the 
quality of their soil and water, while also providing important 
benefits to the community and environment. NRCS programs provide the 
opportunity for farmers and ranchers to improve their practices without 
burdensome regulation. However, over the years, farmers have shied away 
from using conservation practices due to an increase in red tape and 
decrease in available technical assistance. How do you believe that the 
conservation planning process can be made more efficient and effective?
    Answer. NRCS is developing software known as the Conservation 
Assessment Ranking Tool (CART) to make the conservation planning 
process more efficient and effective. CART incorporates the current 
nine steps of NRCS conservation planning, as well as the programmatic 
ranking for Farm Bill program financial assistance. CART provides one 
software platform to field-office staff to work with a customer on 
assessing the resource concern, addressing the resource concern with a 
conservation activity, and determining all applicable Farm Bill 
financial assistance program(s) to help finance the installation of the 
conservation activity.

    Question 4. While cost-share conservation programs are vital to 
America's agricultural producers, these programs are often ineffective 
without robust technical assistance. What are you doing to ensure that 
NRCS's Conservation Technical Assistance program remains strong and 
continues to grow?
    Answer. The CTA Program has a long history as NRCS' conservation 
planning program and the backbone to the Agency's core mission, helping 
to develop and deliver conservation technologies and practices to 
private landowners, conservation districts, Tribes, and other 
organizations. Through the CTA program, NRCS helps land managers 
develop comprehensive conservation plans that include activities that 
reduce soil loss from erosion; address soil, water quality, water 
conservation, air quality, and agricultural waste management concerns; 
reduce potential damage caused by excess water and sedimentation or 
drought; enhance the quality of fish and wildlife habitat; improve the 
long-term sustainability of all private lands, including cropland, 
forestland, grazing lands, coastal lands, and developed or developing 
lands; and facilitate changes in land use as needed for natural 
resource protection and sustainability.
Question Submitted by Hon. K. Michael Conaway, a Representative in 
        Congress from Texas
    Question 1. It is estimated that by 2050, the global demand for 
food will be 60 percent higher than it is today. To meet this daunting 
challenge, it is essential that farm conservation programs promote 
technologies that will help growers produce more with less, while 
preserving water and other natural resources.
    Cloud-based remote telemetry data systems for irrigation scheduling 
help growers maximize efficiency and increase productivity in a 
scalable and cost-effective manner. For example, in field trials Omaha-
based Lindsay Corporation found that remote telemetry with cloud-based 
irrigation scheduling allowed growers to realize:

  <bullet> A 3% increase in corn yield (driving profit of $25 per 
        acre);

  <bullet> A 17% reduction in water usage (saving more than 9.25 
        million gallons on a 130 acre field);

  <bullet> A $10/acre reduction in energy costs; and

  <bullet> A 75% reduction in time spent going back and forth to the 
        fields (another $5/acre saved).

    The 2018 Farm Bill states that USDA may provide EQIP payments for 
water conservation scheduling. The accompanying report goes on to state 
that USDA should recognize remote telemetry data systems for irrigation 
scheduling as a best management practice. I sincerely hope that NRCS' 
irrigation efficiency conservation practice standard is updated to 
incorporate this important water and energy saving tool.
    What is NRCS' timeframe for updating its conservation practice 
standards?
    Answer. Each national conservation practice standard is to be 
formally reviewed at least once every 5 years from its date of issuance 
or date of review. There are 169 conservation practice standards and 13 
innovative trial practice standards.
    Currently, NRCS is performing an expedited review of every national 
conservation practice standard as required by the 2018 Farm Bill. NRCS 
released a Federal Register notice soliciting public feedback on any 
current conservation practice standard on March 29, 2019. In addition, 
NRCS held a public hearing and is offering review opportunities with 
state technical committees, partners, and any other interested parties.
    NRCS received more than 100 comments on the Federal Register and is 
now reviewing comments and updating the standards. The expedited review 
and update are targeted for completion by December 2019.

    Question 1a. How does NRCS plan to educate states and growers about 
changes to its conservation practice standards and about the benefits 
of technology such as cloud-based remote telemetry data systems for 
irrigation scheduling?
    Answer. NRCS reviews and revises its Conservation Practice 
Standards on a 5 year cycle. In conducting these reviews, comments are 
solicited both internally from NRCS state offices and publicly through 
a Federal Register Notice. Comments are taken into consideration and 
applied to the standards as necessary. Once finalized, national 
standards are released through an announcement of changes to the 
National Handbook of Conservation Practices and placed on an NRCS 
webpage. NRCS state offices then have 1 year to adopt the new national 
version of the standard and add additional criteria to address state 
laws and rules, as well as soils and climate. NRCS State offices work 
with their respective State Technical Committees on the adoption of new 
standards and criteria.
    NRCS operates the Soil Climate Analysis Network (SCAN), a national 
network consisting of 221 stations that measure soil moisture, soil 
temperature, air temperature, precipitation, and many other climatic 
parameters and provide this data in near real-time on the internet. In 
areas where a SCAN station is in proximity, the data can be used to 
manage irrigation, thereby reducing water use. The data also can be 
used to determine when to plant based on soil temperature, access to 
fields based on soil moisture, and many other crop management 
practices.

    Question 1b. Is NRCS working to incorporate water conservation 
scheduling payments for technology such as cloud-based irrigation 
scheduling tools into its EQIP regulations?
    Answer. The 2018 Farm Bill offered many new opportunities for NRCS 
to target water conservation. One such provision is the addition of 
water management entities (such as state irrigation districts, 
groundwater management district, Acequias, or similar entities) which 
focuses on addressing water management issues across a larger 
landscape. This provision also includes the opportunity for NRCS to 
provide payments to producers or water management entities through EQIP 
to adopt scheduling practices that balances crop water needs and 
available water supplies with other water conservation needs (such as 
protecting in-stream flows). NRCS will be incorporating these new 
opportunities into the EQIP interim rule and implementation guidance.

                                  [all]
</pre></body></html>
